<html>
<title> - The Department of Defense (DoD) and Department of Veterans Affairs (VA): The Continuum of Care for Post Traumatic Stress isorder (PTSD) Wednesday, July 27, 2005 U.S. House of Representatives, Committee on Veterans' Affairs, Washington, D.C. The Committee met, pursuant to notice, at 10:27 a.m., in Room 334, Cannon House Office Building, Hon. Steve Buyer [Chairman of the Committee] presiding. Present: Representatives Buyer, Burton, Miller of Florida, Boozman, Evans, Filner, Michaud, Herseth, Strickland, Hooley, Berkley, and Udall. Also Present: Hon. Ted Poe of Texas, Hon. Grace Napolitano of California, and Committee Counsel Linda Bennett. The Chairman. The full Committee hearing on the House Veterans' Affairs Committee July 27th, 2005 will come to order. Today the Committee is meeting to examine efforts of the Departments of Defense and Veterans' Affairs to identify recent combat service members at risk for post-traumatic stress disorder, referred to as PTSD, including Reserve and National Guard members, and to assess their capabilities to meet an increase in demand for PTSD-related services from Operations Enduring Freedom and Iraqi Freedom. The wounds of wartime service are not always as visible as those caused by a bullet or shrapnel. Wounds to the mind and spirit, however, are just as serious and demand every bit as much care and attention. We have, since the days when it was called "shell shock," learned much about PTSD. Yet we have much more to learn so that we can accurately diagnose and effectively treat it. Perhaps there are ways that we can prepare our young warriors before they deploy so that they will be less vulnerable to the trauma. These are things we must learn about so that we can take appropriate action. Recently, the VA Inspector General report indicated that waiting times for health care appointments have been underreported, and we owe our veterans better, regardless of the burdens of their service that they bear. So I want to bring this up. I also will note, I read your statements last night, and I'm hopeful that the witnesses today will address this in your testimony. This recent IG report that was examining the state variances in VA disability compensation payments noted some really significant numbers. And that is rather alarming, and I welcome the comments from the experts here today. During fiscal years 1999 to 2004, the number and percentage of PTSD cases increased significantly. Now this is from the IG report dated May 19th, 2005. While the total number of all veterans receiving disability compensation grew by only 12.2 percent, the number of PTSD cases grew by 79.5 percent, from 120,265 cases in Fiscal Year 1999 to 215,871 cases in Fiscal Year 2004. During the same period, PTSD benefit payments increased 1248 percent from $1.7 billion to $4.3 billion. Compensation for all other disability categories only increased by 41 percent. While veterans being compensated for PTSD represented 8.7 percent of all compensation recipients, they're receiving 20.5 percent of all compensation payments. That's a "wow." It's a distortion also in the compensation system. I don't understand the reasons for what's happening out there, and I welcome the input from the experts on this today. And we may even have to do follow-up with regard to this. I now yield to my Ranking Member, Mr. Evans, for his opening remarks. Mr. Evans. Thank you, Mr. Chairman, for holding this hearing. It's really important to hear from these witnesses today. I hope we can move forward quickly on legislation to ensure that the VA and DOD are taking steps to address mental health care needs for returning servicemen and women. I also want to thank Mrs. Stefanie Pelkey for her service to our country in the Army Reserve and for her husband Michael's honorable service. We owe so much to you that we can never repay for what you have suffered, what you have lost. She told her husband's story in her written statement, and it indicated to me the truth of the perception among veterans that the war's outcome doesn't end when they come home. Their service to this country demands that they get the health care they need, the compensation, pension programs and educational benefits and the GI Bill benefits they need. So, thank you, Mr. Chairman. I appreciate your yielding and your time. [The statement of Hon. Lane Evans appears on p. 69] The Chairman. Thank you. Our colleague from Texas, Judge Ted Poe, wanted to be here to introduce his constituent who will testify next, and if you would indulge me, rather than take his statement and submit it, if I my read the introduction of his constituent, our first witness. This is the statement on behalf of our colleague, Ted Poe, of Houston, Texas. Quote: "I want to thank Chairman Buyer and Ranking Member Lane Evans for holding this important hearing on a problem that impacts all of our communities. Stefanie Pelkey is a constituent of mine from Spring, Texas. She was a captain in the Army where she served with her husband, Captain Michael John Pelkey. Today, Stefanie Pelkey will tell you the story of her husband, a man whom she loved who and loved his country and how he was a changed man when he came back from Iraq. She will talk about their experience as they tried to deal with her husband's emotional turmoil, and she will talk about how post traumatic stress disorder hurt both the patient and everyone within their circle of friends and families. Her story is an important story as it serves to underline an important and growing problem as more and more of our armed forces members return from combat with injuries, not all of which are physical, and turn to the VA and DOD for assistance." Ms. Pelkey, you are recognized and may take as much time as you like. STATEMENT OF STEFANIE PELKEY, SPRING, TEXAS; AC- COMPANIED BY MS. SHERRY FORBISH STATEMENT OF STEFANIE PELKEY Ms. Pelkey. Mr. Chairman, Ranking Member Evans, and other members of the Committee, my name is Stefanie Pelkey and I am a former captain in the U.S. Army. This testimony is on behalf of my husband, CPT Michael Jon Pelkey, who died on November 5th, 2004. Although he was a brave veteran of Operation Iraqi Freedom, he did not die in battle, at least not in Iraq. He died in a battle of his heart and mind. He passed away in our home at Fort Sill, Oklahoma from a gunshot wound to the chest. My Michael was diagnosed with post traumatic stress disorder, PTSD, only one week before his death, by a licensed therapist authorized by TRICARE. The official ruling by the Department of Defense is suicide. However, many people, including myself, believe it may have been a horrible accident. We also believe that he would not have been sleeping with a loaded weapon if it weren't for PTSD. When I met my husband, he was responsible and hardworking. He loved life, traveling and having fun. He hailed from Wolcott, Connecticut and was one of six siblings. He received his commission from the University of Connecticut. Being a soldier was a childhood dream for him. We were married in November 2001, and our journey as a military family began. Michael deployed for Iraq with the 1st Armored Division in late March of 2003, three weeks after our son Benjamin was born. He left a happy and proud father. He returned in late July 2003. It seemed upon his return that our family was complete and that we had made it through our first real world deployment. He seemed so happy to be home. A few days after returning to Germany, he reported to his primary care physician on July 28, 2003, as part of a post-deployment health assessment. He expressed concerns to his primary care physician that he was worried about having serious conflicts with loved ones. The physician referred him to see a counselor. However, the mental health staff on our post was severely understaffed with only one or two psychiatrists. Michael was unable to get an appointment before we moved from our post in Germany to Fort Sill, Oklahoma. He noted several concerns on his DD Form 2796, post-deployment health assessment. However, the most worrisome notation from this form was the admission of feeling down, depressed and sometimes hopeless. He also noted that he was constantly on guard and easily startled after returning from his deployment. When we got to Fort Sill, we both settled into our assignments. Everything seemed normal for a while. Six months later, the symptoms of PTSD started to surface, only we did not know enough about PTSD to connect the dots. When my husband returned from Iraq, there were no debriefings for family members, service members, or forced evaluations from Army Mental Health in Germany. As a soldier and wife, I never received any preparation on what to expect upon my husband's return. I believe that it is crucial that spouses be informed about the symptoms of PTSD. Spouses are sometimes the only ones who will encourage a soldier to seek help. Most soldiers I know will not willingly seek help at any military mental facility, for fear of repercussions or even jibes from fellow soldiers. After months arriving in Oklahoma, there were several instances in which I would find a fully loaded 9mm pistol under Michael's pillow or under his side of the bed. I could not seem to get through to him that having this weapon was not necessary and it posed a danger to our family. Michael finally agreed to put his pistols away. I thought the situation was resolved. As a soldier myself, I could understand that having a weapon after being in war might somewhat be habitual for him. Little by little, other symptoms started to arrive, including forgetfulness, chest pains, high blood pressure and trouble sleeping. Remembering to mail bills and recalling simple things became a great problem for him. One of the greatest tests PTSD posed to our marriage was that Michael began to suffer from erectile dysfunction, which would cause him to break into tears. He did not understand what was happening. I did not know what was happening to my husband. On other occasions, he would overreact to simple things. One night we heard something in the garage. It was still light outside. Michael proceeded to run outside with a fully loaded weapon and almost fired at a neighbor's cat. These overreactions occurred on several occasions. These symptoms would come and go to a point that they didn't seem like a problem at the time. There were times that everything seemed just right in our home, and he seemed capable enough. He was succeeding in his career as the only captain in a research and development unit at Fort Sill. It was a job in which he was entrusted with researching and contributing to the Army's latest in targeting developments. We soon bought a new house, and he was so proud of it. We were finally getting settled. Finally, the nightmares began. this would be the last symptom of PTSD to arise, and it was the one symptom that I feel ultimately contributed to my husband's death. These nightmares were so disturbing that Michael would sometimes kick me in his sleep or wake up running to turn on the lights. He would wake up covered in sweat, and I would hold him until he went back to sleep. He was almost child-like in these moments. In the morning, he would joke around, and, sadly, we both laughed it off. However, at this time I do want to point out that Michael was seeking help for all of these symptoms I have discussed. He was put on high blood pressure medication. He also complained of chest pains and was seen on three occasions in the month preceding his death. He even sought a prescription for Viagra to ease marital tensions. However, no military physician who ever saw Michael could give him any answers. No doctor ever asked him about depression or linked his symptoms to the war. Michael tried to seek help from the Fort Sill mental health facility but was discouraged that the appointments he was given were sometimes a month away. So he called TRICARE and was told that he could receive outside therapy if it was family therapy, so we took it. Family therapy, marital counseling, or whatever they wanted to call it, we were desperate to save our marriage. After all, the symptoms of PTSD were causing most of our heartache. In the two weeks prior to his death, we saw a therapist as a couple and individually. This therapist told Michael that he had PTSD and that she would recommend to his primary care provider that he be put on medication. He was so excited and expressed to me that he could see a light at the end of the tunnel. He finally had an answer to all of his problems and some of our marital troubles. It was an exciting day for us, not to mention two weeks before his death, he interviewed for a position in which he would be running the staff of a general officer. He was beaming with pride. He met with the therapist on a Monday. Tuesday we celebrated our third wedding anniversary. It was a happy time. I felt hope and relief with the recent positive events. Michael must have felt something else. Friday my parents were visiting. I was at a church function, and my father returned from playing golf to find Michael. He looked as if he were sleeping peacefully, except for the wet spot on his chest. His pain was finally over and his battle with PTSD was won. No, he wasn't in Iraq, but in his mind, he was there day in and day out. Although Michael would never discuss the details of his experiences in Iraq, I know he saw casualties, children suffering, dead civilians and soldiers perish. For my soft-hearted Michael, this was enough. Every man's heart is different. For my Michael, it may not have taken much, but it changed his heart and his mind forever. My husband served the Army and his country with honor. He was a hard worker, a wonderful husband and father. He leaves behind a 28-month-old son, Benjamin. One day I would like to tell my son what a hero his father was. He went to war and came back with an illness. Although PTSD is evident in his medical records and in my experiences with Michael, the Army has chosen to rule Michael's death a suicide without documenting this serious illness. I have been told by the investigator that PTSD diagnoses must be documented by Army mental health psychiatrists to be considered valid. At the time Michael sought help, he knew it was an urgent matter and was not willing to wait a month or even a few days. We accepted the help TRICARE offered us, and now Michael is not going to get the credit that he deserves. Why pay outside mental health providers to care for our soldiers if their diagnoses are not considered valid? He is a casualty of war. I have heard this spoken from the mouths of two generals. He came home with an injured mind. And to let him become just a suicide is an injustice to someone who served their country so bravely. He loved being a soldier and he put his heart into it. I will be submitting petitions to have PTSD officially documented and to have my husband put on the official Operation Iraqi Freedom Casualty of War list. There are so many soldiers who have committed suicide due to PTSD in Iraq and received full honors and benefits without an official PTSD diagnosis. Michael deserves the same honor. If only the military community at that time had reached out to family members in some manner to prepare them for and make them aware of the symptoms of PTSD, my family's tragedy could have been averted. So many soldiers are suffering from this disorder, and so many families are suffering from the aftermath of this war. I don't want my Michael to have died in vain. He had a purpose in this life, and that was to watch over his soldiers. I intend to keep helping him do so by spreading our story. He suffered greatly from the classic symptoms of PTSD. It is plain to see in retrospect. His weapon became a great source of comfort for him. He endured sleepless nights due to nightmares and images of suffering that only Michael knew. My husband died of wounds sustained in battle. That is the bottom line. And the war does not end when they come home. Thank you. [The statement of Stefanie E. Pelkey appears on p. 76] The Chairman. Mrs. Pelkey, thank you for sharing your story. It takes courage for you to sit there and share publicly, but I know you do that on behalf of your husband. Actually you're telling his story, and I think it's extremely important. Sitting to your left is your congressman, Congressman Ted Poe. And he was with the President, but I'm glad he's now arrived. I want you to know, Congressman Poe, I read your introduction of your constituent into the record, but I'll yield to you for any comments that you may have. Mr. Poe. Thank you, Mr. Chairman, and thanks for having this hearing. Besides the fact that Mrs. Pelkey is a constituent of mine, a little more background about her. She graduated with an Associate degree from the New Mexico Military Institute in Roswell, New Mexico back in 1996 and went on to graduate and receive her commission as a second lieutenant from the New Mexico State University in Las Cruces, New Mexico. And then graduating officer's basic course, Mrs. Pelkey received her first assignment as the battalion chemical officer for the 1st 94th Field Artillery Battalion in Germany. It is important to note that she was the first woman to serve in this field artillery battalion and one of the first three women in Germany to ever be placed in an all-male combat arms unit. After she met her husband, they were married on November they were married on November 2, 2001, and their son Benjamin was born on March 15, 2003 in Germany. Her second assignment was as the brigade chemical officer for the 75th Field Artillery Brigade at Fort Sill, Oklahoma. She left the Army and ended her time in service in September of 2004. And her husband Michael died on November the 5th, 2004. And I want to thank you, Mr. Chairman, for having this hearing, and I also want to thank Mrs. Pelkey for her moving testimony. I yield back. Thank you. The Chairman. Thank you very much. Mrs. Pelkey, your pain will last for some time, and I think as those of us here listening to your story, we seek to empathize and sympathize with your position. I could not help reflect upon my best friend, who was 16, and took his own life with a pistol. His baseball cap sits behind my desk so I can look at it every day. And a lot of people walk into my office and they think probably it's my baseball cap, but it's my best friend's. And, you know, I have for the last 27 years, when I think of him, thought of why, and what could I have done to prevent it. And it's going to happen to you, you're going to ask in your mind, "Did I do all that I should have done?" Now when you do that, what is important for us, though, is for you not to place that burden so much upon yourself. You're going to. I do, and will continue to ask, "What could I have done?" But let me shift it. You touched on the fact that your husband sought treatment, but there was an access problem. Can you develop that a little more for us to understand? Because here, for those of us who have oversight over the VA, the reason we've asked the military to come here is that these soldiers transition, as you know, from the military to veteran status. The VA also cares for some of the active duty in our system and then they transition back and VA gets reimbursed for that care. For this transition, we are trying to make sure that that health care is seamless, so that help is available when you find yourself in a position that is very challenging. Help us understand when you play this back in your mind, where did the system break down, and where should the help have been? Ms. Pelkey. I want to point out that at this time that my husband was redeployed back to Germany was in the very early stages of them even bringing people back from Iraq. I think they were more, or the Army was more on a level of preparing for units to come back at that time and not individual soldiers. They did have the post-deployment health assessment in place, and the doctors did refer him to see mental health. But I think the breakdown in the system overall for my husband was the lack of staff at the mental health facility in Germany at that time. And I know there have been improvements since. But also, when he was seen at Fort Sill, there was no system in place for when these symptoms arise for the primary care providers, the nurses, the doctors, to recognize these symptoms. They should be able to trigger some kind of post traumatic stress disorder diagnosis, you know, or referral when they see some of these symptoms, and that's just not in place, to my knowledge. And I think that's where my husband really, really lost out was that they just didn't recognize the physical symptoms. The Chairman. So when the doctors were treating the physical symptoms, they were being very narrow rather than taking it to a PTSD level? Ms. Pelkey. Right. The Chairman. How many doctors did he see, do you recall? How many different medical doctors at Fort Sill? Ms. Pelkey. He saw his primary care provider, who consulted with the same physician each time. And I can tell you there were about seven or eight different visits for chest pains, high blood pressure, erectile dysfunction and even noted depression. The Chairman. At any time did you think of or suspect PTSD? Ms. Pelkey. No, I did not suspect PTSD. I didn't really know anything about it at that point. I think that my husband and I thought that we were just going through marital problems. The Chairman. So when was the first time you heard about PTSD? Ms. Pelkey. I heard of PTSD shortly before my husband died, when he was diagnosed, by his outside provider. The Chairman. And who was the outside provider? Ms. Pelkey. She was a therapist. Her name was Joanie Sailor, and she was an off-post provider that generally TRICARE sends the soldiers to for treatment. The Chairman. So she's a civilian therapist. Is she a doctor? Ms. Pelkey. She's a civilian therapist. She's an MA. She's a licensed therapist. The Chairman. So at Fort Sill</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
The Department of Defense (DoD) and Department of Veterans Affairs (VA):  The 
Continuum of Care for Post Traumatic Stress isorder (PTSD)


Wednesday, July 27, 2005

U.S. House of Representatives,     
Committee on Veterans' Affairs,
Washington, D.C.

    The Committee met, pursuant to notice, at 10:27 a.m., in Room 334, Cannon 
House Office Building, Hon. Steve Buyer [Chairman of the Committee] presiding.

    Present:  Representatives Buyer, Burton, Miller of Florida, Boozman, 
Evans, Filner, Michaud, Herseth, Strickland, Hooley, Berkley, and Udall.
    Also Present:  Hon. Ted Poe of Texas, Hon. Grace Napolitano of California, 
and Committee Counsel Linda Bennett.

    The Chairman. The full Committee hearing on the House Veterans' Affairs 
Committee July 27th, 2005 will come to order.
    Today the Committee is meeting to examine efforts of the Departments of 
Defense and Veterans' Affairs to identify recent combat service members at 
risk for post-traumatic stress disorder, referred to as PTSD, including 
Reserve and National Guard members, and to assess their capabilities to meet 
an increase in demand for PTSD-related services from Operations Enduring 
Freedom and Iraqi Freedom.
    The wounds of wartime service are not always as visible as those caused 
by a bullet or shrapnel.  Wounds to the mind and spirit, however, are just as 
serious and demand every bit as much care and attention.
    We have, since the days when it was called "shell shock," learned much 
about PTSD.  Yet we have much more to learn so that we can accurately diagnose 
and effectively treat it.  Perhaps there are ways that we can prepare our 
young warriors before they deploy so that they will be less vulnerable to the 
trauma.
    These are things we must learn about so that we can take appropriate 
action.
    Recently, the VA Inspector General report indicated that waiting times for 
health care appointments have been underreported, and we owe our veterans 
better, regardless of the burdens of their service that they bear.
    So I want to bring this up.  I also will note, I read your statements last 
night, and I'm hopeful that the witnesses today will address this in your 
testimony.  This recent IG report that was examining the state variances in VA 
disability compensation payments noted some really significant numbers.  And 
that is rather alarming, and I welcome the comments from the experts here 
today.
    During fiscal years 1999 to 2004, the number and percentage of PTSD cases 
increased significantly.  Now this is from the IG report dated May 19th, 2005.  
While the total number of all veterans receiving disability compensation grew 
by only 12.2 percent, the number of PTSD cases grew by 79.5 percent, from 
120,265 cases in Fiscal Year 1999 to 215,871 cases in Fiscal Year 2004.  
During the same period, PTSD benefit payments increased 1248 percent from $1.7 
billion to $4.3 billion.
    Compensation for all other disability categories only increased by 41 
percent.  While veterans being compensated for PTSD represented 8.7 percent of 
all compensation recipients, they're receiving 20.5 percent of all 
compensation payments.  That's a "wow."  It's a distortion also in the 
compensation system.  I don't understand the reasons for what's happening out 
there, and I welcome the input from the experts on this today.  And we may 
even have to do follow-up with regard to this.
    I now yield to my Ranking Member, Mr. Evans, for his opening remarks.
    Mr. Evans. Thank you, Mr. Chairman, for holding this hearing.  It's really 
important to hear from these witnesses today.  I hope we can move forward 
quickly on legislation to ensure that the VA and DOD are taking steps to 
address mental health care needs for returning servicemen and women.
    I also want to thank Mrs. Stefanie Pelkey for her service to our country 
in the Army Reserve and for her husband Michael's honorable service.  We owe 
so much to you that we can never repay for what you have suffered, what you 
have lost.
    She told her husband's story in her written statement, and it indicated to 
me the truth of the perception among veterans that the war's outcome doesn't 
end when they come home.  Their service to this country demands that they get 
the health care they need, the compensation, pension programs and educational 
benefits and the GI Bill benefits they need.
    So, thank you, Mr. Chairman.  I appreciate your yielding and your time.
    [The statement of Hon. Lane Evans appears on p. 69]

    The Chairman. Thank you.  Our colleague from Texas, Judge Ted Poe, wanted 
to be here to introduce his constituent who will testify next, and if you 
would indulge me, rather than take his statement and submit it, if I my read 
the introduction of his constituent, our first witness.  This is the statement 
on behalf of our colleague, Ted Poe, of Houston, Texas.  Quote:  "I want to 
thank Chairman Buyer and Ranking Member Lane Evans for holding this important 
hearing on a problem that impacts all of our communities.  Stefanie Pelkey is 
a constituent of mine from Spring, Texas.  She was a captain in the Army where 
she served with her husband, Captain Michael John Pelkey.  Today, Stefanie 
Pelkey will tell you the story of her husband, a man whom she loved who and 
loved his country and how he was a changed man when he came back from Iraq. 
She will talk about their experience as they tried to deal with her husband's 
emotional turmoil, and she will talk about how post traumatic stress disorder 
hurt both the patient and everyone within their circle of friends and 
families.  Her story is an important story as it serves to underline an 
important and growing problem as more and more of our armed forces members 
return from combat with injuries, not all of which are physical, and turn to 
the VA and DOD for assistance."  Ms. Pelkey, you are recognized and may take 
as much time as you like.

STATEMENT OF STEFANIE PELKEY, SPRING, TEXAS; AC-
    COMPANIED BY MS. SHERRY FORBISH

STATEMENT OF STEFANIE PELKEY

    Ms. Pelkey. Mr. Chairman, Ranking Member Evans, and other members of the 
Committee, my name is Stefanie Pelkey and I am a former captain in the U.S. 
Army.  This testimony is on behalf of my husband, CPT Michael Jon Pelkey, who 
died on November 5th, 2004.  Although he was a brave veteran of Operation 
Iraqi Freedom, he did not die in battle, at least not in Iraq.  He died in a 
battle of his heart and mind.  He passed away in our home at Fort Sill, 
Oklahoma from a gunshot wound to the chest.  My Michael was diagnosed with 
post traumatic stress disorder, PTSD, only one week before his death, by a 
licensed therapist authorized by TRICARE.
    The official ruling by the Department of Defense is suicide.  However, 
many people, including myself, believe it may have been a horrible accident.  
We also believe that he would not have been sleeping with a loaded weapon if 
it weren't for PTSD.
    When I met my husband, he was responsible and hardworking.  He loved life, 
traveling and having fun.  He hailed from Wolcott, Connecticut and was one of 
six siblings. He received his commission from the University of Connecticut. 
Being a soldier was a childhood dream for him.
    We were married in November 2001, and our journey as a military family 
began.  Michael deployed for Iraq with the 1st Armored Division in late March 
of 2003, three weeks after our son Benjamin was born.  He left a happy and 
proud father. He returned in late July 2003.  It seemed upon his return that 
our family was complete and that we had made it through our first real world 
deployment.  He seemed so happy to be home.
    A few days after returning to Germany, he reported to his primary care 
physician on July 28, 2003, as part of a post-deployment health assessment.  
He expressed concerns to his primary care physician that he was worried about 
having serious conflicts with loved ones.  The physician referred him to see a 
counselor.  However, the mental health staff on our post was severely 
understaffed with only one or two psychiatrists.  Michael was unable to get an 
appointment before we moved from our post in Germany to Fort Sill, Oklahoma.
    He noted several concerns on his DD Form 2796, post-deployment health 
assessment.  However, the most worrisome notation from this form was the 
admission of feeling down, depressed and sometimes hopeless.  He also noted 
that he was constantly on guard and easily startled after returning from his 
deployment.
    When we got to Fort Sill, we both settled into our assignments. 
Everything seemed normal for a while.  Six months later, the symptoms of PTSD 
started to surface, only we did not know enough about PTSD to connect the 
dots.
    When my husband returned from Iraq, there were no debriefings for family 
members, service members, or forced evaluations from Army Mental Health in 
Germany.  As a soldier and wife, I never received any preparation on what to 
expect upon my husband's return.  I believe that it is crucial that spouses be 
informed about the symptoms of PTSD.  Spouses are sometimes the only ones who 
will encourage a soldier to seek help.  Most soldiers I know will not 
willingly seek help at any military mental facility, for fear of repercussions 
or even jibes from fellow soldiers.
    After months arriving in Oklahoma, there were several instances in which I 
would find a fully loaded 9mm pistol under Michael's pillow or under his side 
of the bed.  I could not seem to get through to him that having this weapon 
was not necessary and it posed a danger to our family. Michael finally agreed 
to put his pistols away.  I thought the situation was resolved.  As a soldier 
myself, I could understand that having a weapon after being in war might 
somewhat be habitual for him.
    Little by little, other symptoms started to arrive, including 
forgetfulness, chest pains, high blood pressure and trouble sleeping.  
Remembering to mail bills and recalling simple things became a great problem 
for him.  One of the greatest tests PTSD posed to our marriage was that 
Michael began to suffer from erectile dysfunction, which would cause him to 
break into tears.  He did not understand what was happening.  I did not know 
what was happening to my husband.
    On other occasions, he would overreact to simple things.  One night we 
heard something in the garage.  It was still light outside.  Michael proceeded 
to run outside with a fully loaded weapon and almost fired at a neighbor's 
cat. These overreactions occurred on several occasions.
    These symptoms would come and go to a point that they didn't seem like a 
problem at the time.  There were times that everything seemed just right in 
our home, and he seemed capable enough.  He was succeeding in his career as 
the only captain in a research and development unit at Fort Sill.  It was a 
job in which he was entrusted with researching and contributing to the Army's 
latest in targeting developments.
    We soon bought a new house, and he was so proud of it.  We were finally 
getting settled.  Finally, the nightmares began.  this would be the last 
symptom of PTSD to arise, and it was the one symptom that I feel ultimately 
contributed to my husband's death.  These nightmares were so disturbing that 
Michael would sometimes kick me in his sleep or wake up running to turn on the 
lights.  He would wake up covered in sweat, and I would hold him until he went 
back to sleep.  He was almost child-like in these moments.  In the morning, he 
would joke around, and, sadly, we both laughed it off.
    However, at this time I do want to point out that Michael was seeking help 
for all of these symptoms I have discussed.  He was put on high blood pressure 
medication.  He also complained of chest pains and was seen on three occasions 
in the month preceding his death.  He even sought a prescription for Viagra to 
ease marital tensions.  However, no military physician who ever saw Michael 
could give him any answers.  No doctor ever asked him about depression or 
linked his symptoms to the war.
    Michael tried to seek help from the Fort Sill mental health facility but 
was discouraged that the appointments he was given were sometimes a month 
away.  So he called TRICARE and was told that he could receive outside therapy 
if it was family therapy, so we took it.  Family therapy, marital counseling, 
or whatever they wanted to call it, we were desperate to save our marriage.  
After all, the symptoms of PTSD were causing most of our heartache.
    In the two weeks prior to his death, we saw a therapist as a couple and 
individually.  This therapist told Michael that he had PTSD and that she would 
recommend to his primary care provider that he be put on medication.  He was 
so excited and expressed to me that he could see a light at the end of the 
tunnel.  He finally had an answer to all of his problems and some of our 
marital troubles.  It was an exciting day for us, not to mention two weeks 
before his death, he interviewed for a position in which he would be running 
the staff of a general officer.  He was beaming with pride.
    He met with the therapist on a Monday.  Tuesday we celebrated our third 
wedding anniversary.  It was a happy time.  I felt hope and relief with the 
recent positive events. Michael must have felt something else.  Friday my 
parents were visiting.  I was at a church function, and my father returned from 
playing golf to find Michael.  He looked as if he were sleeping peacefully, 
except for the wet spot on his chest. His pain was finally over and his battle 
with PTSD was won. No, he wasn't in Iraq, but in his mind, he was there day in 
and day out.  Although Michael would never discuss the details of his 
experiences in Iraq, I know he saw casualties, children suffering, dead 
civilians and soldiers perish.  For my soft-hearted Michael, this was enough.  
Every man's heart is different.  For my Michael, it may not have taken much, but 
it changed his heart and his mind forever.
    My husband served the Army and his country with honor.  He was a hard 
worker, a wonderful husband and father. He leaves behind a 28-month-old son, 
Benjamin.  One day I would like to tell my son what a hero his father was.  He 
went to war and came back with an illness.
    Although PTSD is evident in his medical records and in my experiences with 
Michael, the Army has chosen to rule Michael's death a suicide without 
documenting this serious illness.  I have been told by the investigator that 
PTSD diagnoses must be documented by Army mental health psychiatrists to be 
considered valid.  At the time Michael sought help, he knew it was an urgent 
matter and was not willing to wait a month or even a few days.  We accepted 
the help TRICARE offered us, and now Michael is not going to get the credit 
that he deserves.  Why pay outside mental health providers to care for our 
soldiers if their diagnoses are not considered valid?  He is a casualty of 
war.  I have heard this spoken from the mouths of two generals.  He came home 
with an injured mind.  And to let him become just a suicide is an injustice to 
someone who served their country so bravely.  He loved being a soldier and he 
put his heart into it.
    I will be submitting petitions to have PTSD officially documented and to 
have my husband put on the official Operation Iraqi Freedom Casualty of War 
list.  There are so many soldiers who have committed suicide due to PTSD in 
Iraq and received full honors and benefits without an official PTSD diagnosis. 
Michael deserves the same honor.
    If only the military community at that time had reached out to family 
members in some manner to prepare them for and make them aware of the symptoms 
of PTSD, my family's tragedy could have been averted.
    So many soldiers are suffering from this disorder, and so many families 
are suffering from the aftermath of this war.  I don't want my Michael to have 
died in vain.  He had a purpose in this life, and that was to watch over his 
soldiers. I intend to keep helping him do so by spreading our story.  He 
suffered greatly from the classic symptoms of PTSD.  It is plain to see in 
retrospect.  His weapon became a great source of comfort for him.  He endured 
sleepless nights due to nightmares and images of suffering that only Michael 
knew.
    My husband died of wounds sustained in battle.  That is the bottom line.  
And the war does not end when they come home.
    Thank you.
    [The statement of Stefanie E. Pelkey appears on p. 76]

    The Chairman. Mrs. Pelkey, thank you for sharing your story.  It takes 
courage for you to sit there and share publicly, but I know you do that on 
behalf of your husband. Actually you're telling his story, and I think it's 
extremely important.
    Sitting to your left is your congressman, Congressman Ted Poe.  And he was 
with the President, but I'm glad he's now arrived.  I want you to know, 
Congressman Poe, I read your introduction of your constituent into the record, 
but I'll yield to you for any comments that you may have.
    Mr. Poe. Thank you, Mr. Chairman, and thanks for having this hearing.  
Besides the fact that Mrs. Pelkey is a constituent of mine, a little more 
background about her.
    She graduated with an Associate degree from the New Mexico Military 
Institute in Roswell, New Mexico back in 1996 and went on to graduate and 
receive her commission as a second lieutenant from the New Mexico State 
University in Las Cruces, New Mexico.  And then graduating officer's basic 
course, Mrs. Pelkey received her first assignment as the battalion chemical 
officer for the 1st 94th Field Artillery Battalion in Germany. It is important 
to note that she was the first woman to serve in this field artillery 
battalion and one of the first three women in Germany to ever be placed in an 
all-male combat arms unit.
    After she met her husband, they were married on November they were married 
on November 2, 2001, and their son Benjamin was born on March 15, 2003 in 
Germany.  Her second assignment was as the brigade chemical officer for the 
75th Field Artillery Brigade at Fort Sill, Oklahoma.
    She left the Army and ended her time in service in September of 2004.  And 
her husband Michael died on November the 5th, 2004.
    And I want to thank you, Mr. Chairman, for having this hearing, and I also 
want to thank Mrs. Pelkey for her moving testimony.
    I yield back.  Thank you.
    The Chairman. Thank you very much.  Mrs. Pelkey, your pain will last for 
some time, and I think as those of us here listening to your story, we seek to 
empathize and sympathize with your position.  I could not help reflect upon my 
best friend, who was 16, and took his own life with a pistol.  His baseball 
cap sits behind my desk so I can look at it every day.  And a lot of people 
walk into my office and they think probably it's my baseball cap, but it's my 
best friend's. And, you know, I have for the last 27 years, when I think of 
him, thought of why, and what could I have done to prevent it.  And it's going 
to happen to you, you're going to ask in your mind, "Did I do all that I 
should have done?" Now when you do that, what is important for us, though, is 
for you not to place that burden so much upon yourself.  You're going to.  I 
do, and will continue to ask, "What could I have done?"
    But let me shift it.  You touched on the fact that your husband sought 
treatment, but there was an access problem.  Can you develop that a little 
more for us to understand?  Because here, for those of us who have oversight 
over the VA, the reason we've asked the military to come here is that these 
soldiers transition, as you know, from the military to veteran status.  The VA 
also cares for some of the active duty in our system and then they transition 
back and VA gets reimbursed for that care.
    For this transition, we are trying to make sure that that health care is 
seamless, so that help is available when you find yourself in a position that 
is very challenging.  Help us understand when you play this back in your mind, 
where did the system break down, and where should the help have been?
    Ms. Pelkey. I want to point out that at this time that my husband was 
redeployed back to Germany was in the very early stages of them even bringing 
people back from Iraq.  I think they were more, or the Army was more on a 
level of preparing for units to come back at that time and not individual 
soldiers.
    They did have the post-deployment health assessment in place, and the 
doctors did refer him to see mental health. But I think the breakdown in the 
system overall for my husband was the lack of staff at the mental health 
facility in Germany at that time.  And I know there have been improvements 
since.
    But also, when he was seen at Fort Sill, there was no system in place for 
when these symptoms arise for the primary care providers, the nurses, the 
doctors, to recognize these symptoms.  They should be able to trigger some 
kind of post traumatic stress disorder diagnosis, you know, or referral when 
they see some of these symptoms, and that's just not in place, to my 
knowledge.  And I think that's where my husband really, really lost out was 
that they just didn't recognize the physical symptoms.
    The Chairman. So when the doctors were treating the physical symptoms, 
they were being very narrow rather than taking it to a PTSD level?
    Ms. Pelkey. Right.
    The Chairman. How many doctors did he see, do you recall?  How many 
different medical doctors at Fort Sill?
    Ms. Pelkey. He saw his primary care provider, who consulted with the same 
physician each time.  And I can tell you there were about seven or eight 
different visits for chest pains, high blood pressure, erectile dysfunction 
and even noted depression.
    The Chairman. At any time did you think of or suspect PTSD?
    Ms. Pelkey. No, I did not suspect PTSD.  I didn't really know anything 
about it at that point.  I think that my husband and I thought that we were 
just going through marital problems.
    The Chairman. So when was the first time you heard about PTSD?
    Ms. Pelkey. I heard of PTSD shortly before my husband died, when he was 
diagnosed, by his outside provider.
    The Chairman. And who was the outside provider?
    Ms. Pelkey. She was a therapist.  Her name was Joanie Sailor, and she was 
an off-post provider that generally TRICARE sends the soldiers to for 
treatment.
    The Chairman. So she's a civilian therapist.  Is she a doctor?
    Ms. Pelkey. She's a civilian therapist.  She's an MA.  She's a licensed 
therapist.
    The Chairman. So at Fort Sill -- well, maybe this is a question for others 
-- do you know how many referrals there were -- were there others that you 
knew who were being referred to TRICARE?
    Ms. Pelkey. I know that, I mean, from general knowledge, that the Army as 
a whole is having problems with marriage in general, divorce rates and 
everything.  So I can imagine that there are plenty of people that are being 
seen -- 
    The Chairman. That's right.  You got there through family therapy as the 
access, because you weren't getting that access from the military?
    Ms. Pelkey. Yes sir.  We had the opportunity to, but like I said, my 
husband was not willing to wait.  I think at that point he knew that we needed 
to do something immediately, and he was not willing to wait the amount of time 
which was given to him, which was a month.
    The Chairman. You know, in the military we talk about the Army family, 
right, the Army of One.  And somewhere in there was a breakdown in the family to 
help take care of our own.  I mean, that's my sense by your story here.  And 
that's very bothersome to me.
    Let me yield at this time to Mr. Filner for any questions he may have.  
You're now recognized for five minutes.
    Mr. Filner. Thank you, Mr. Chairman.  And thank you for having this hearing, 
and thank you for scheduling Mrs. Pelkey here with us.  I know we were all 
affected, Mrs. Pelkey.  I appreciate your courage and your willingness to 
testify in public.  It's very important.  I'm glad there are people from the DOD 
and VA here to hear it.  I don't know if you've tried to talk to them, go up 
that chain of command, but I'm glad they heard it.
    We talk a lot, we argue about numbers here.  Is a billion dollars enough, 
two billion?  But it gets down to whether we have the services for people like 
you and your husband, and we simply don't.  It comes down to being able to get 
the needed help; appointments not being available, and veterans having to 
wait.  It's not just statistics, it's human beings, and you've pointed that 
out.
    First of all, you made a very powerful statement about families being 
educated.  I mean, that's rather an obvious and fairly simple thing in 
essence, if the Army, and other defense agencies recognized it.
    We've seen it with our atomic veterans, our Agent Orange from Vietnam, 
PTSD.  At first, nobody wanted to recognize the truth.  They said it's only 
just, as the Chairman said, shell shock or it's in your head.  And it looks to 
me, there's an institutional dynamic to deny illnesses, maybe because it's 
going to cost money, or they don't want to admit mental problems on behalf of 
our brave young men and women.
    But the outreach to families, the outreach to soldiers coming back has to 
be incredibly expanded.  I think you would agree with me that if you had known 
this from the beginning, you could have pressed for the proper attention.  And 
even if you press for that, by the way, I can tell you there's not enough 
resources now.  And for some reason, the VA is still messing around with a 
mathematical model to tell us how many people are going to have mental health 
problems.
    It just doesn't seem to me they're recognizing it still.  You have an 
important role to play.  I hope we can work with you to do that.
    Even with your knowledge now of PTSD, if your husband was not diagnosed as 
PTSD service-connected, there's no provision for services, is there?  If 
something happened, let's say two years, more than two years down the line, if 
these symptoms became graver then, he would have had the same problems.  Is 
that your sense of it?
    Ms. Pelkey. He would have had the same problems, but I do want to make 
very clear that I have seen with my own eyes that, after my husband's death, 
that the Army became very proactive on the Fort Sill community.  They started 
a program there that has just grown, and they're not waiting around for any 
models to come out.  They're trying to see what works for the soldiers.  And 
they have some very low budget programs that are working wonderfully for the 
soldiers.
    There are group therapies.  There are things out there that are working 
that don't cost a whole lot of money. And they're working.  Soldiers don't 
want to see PowerPoint presentations.  They don't want to see videos.  They 
want to be in a safe environment.
    They want to talk with one another, just as I know in my experience 
talking to Vietnam veterans and other war veterans, that they feel safe 
amongst themselves talking about it, and this is what they've done at Fort 
Sill.
    They've modeled the program to integrate the soldiers wherever they're 
comfortable.  They go into motor pools wherever they have to, and they're 
talking to the soldiers, and then the soldiers that have apparent problems are 
put into group sessions and they talk, they joke around, and then they really 
get down to the problems that they have. And this is what's working, from what 
I've seen.
    So there are things out there that are being done.
    Mr. Filner. I think we know how to deal with it if we put the resources in.  
Do you think the families, whether it's the spouses or the children are getting 
-- while the service member is deployed, that's when some education should be 
done.  Is that being done also at Fort Sill?
    Ms. Pelkey. They are -- they have a very strong pre- and post-deployment 
there now.  I mean, yeah, it did take a loss or maybe even, you know, a couple 
of losses.  But the command has been very proactive there.  They now brief 
spouses, and they're starting a program for children where they even sit the 
children down and tell them, you know, these are the things that scare mommy 
or daddy.  These are the things, slamming doors and -- they try to educate the 
children and they're trying their hardest, but it's crucial I think to educate 
the spouses, because spouses, whether they're male or female, are ultimately 
the ones that are going to push their spouse to go and get help, whether it's 
because of marital tension or, you know, just they're the ones.  They're the 
ones that are going to urge the soldier to go.
    Mr. Filner. Yes.  I've sat in some of the PTSD discussions.  They're very 
powerful.  I just hope what you're describing at Fort Sill keeps going even 
after a change of command.  Sometimes these things are personally driven as 
opposed to institutionally driven.  And what you've taken as your job and 
which we want to support is to get all this institutionalized, provide 
whatever money is needed. We've seen what happens in Vietnam if you don't 
treat the mental state.  You know, half of the people on the streets today are 
Vietnam vets, and that's partially because we didn't take it very seriously.
    The Chairman. Thank you.
    Mr. Filner. And we see it happening again, and I appreciate your efforts.
    The Chairman. Thank you, Mr. Filner, for your contribution.  I now 
recognize Mr. Michaud.  Ma'am, he's the Ranking Member on our Health 
Subcommittee.  He's from the State of Maine.
    Mr. Michaud. Thank you very much, Mr. Chairman. I'd ask unanimous consent 
for my full opening statement to be submitted for the record.
    The Chairman. Hearing no objection, so ordered.

    [The statement of Hon. Michael Michaud appears on p. 74]

    Mr. Michaud. Also, Mr. Chairman, I'd ask that testimony from the National 
Mental Health Association be entered into the record.
    The Chairman. We have an entire list when I get to the end that will be 
submitted.  They are on the list.
    Mr. Michaud. Okay.  Great.  Thank you, Mr. Chairman.  Mrs. Pelkey, first 
of all, I want to thank you for your courage and your willingness to come 
before this Committee and share your experience.  It is tragic what happened 
to your husband, but your willingness to speak out will help many other 
families who will face the challenges of caring for family members with PTSD.
    Many American military families are in your debt for your testimony here 
today, and for that, I want to thank you for that testimony because, 
unfortunate that it happened, but I think hopefully we'll learn from it and be 
able to help others.
    I just have one question.  In your testimony, you indicated that you would 
like your husband to be recognized as a casualty of combat.  Has the Army 
explained to you the process by which you can petition to have your husband 
acknowledged as a casualty of war?
    Ms. Pelkey. The fact that it's not being recognized in his file, in his 
case file, is one reason that the subject has never come up between myself or 
a casualty officer.  So it hasn't been discussed yet.  It's something I would 
like to do, because I believe that it will open the door to this being 
recognized as a wound of war and for them to be recognized as casualties.
    And they've already done so in recognizing one soldier that I know of.  
His name is Master Sergeant Koontz from Katy, Texas.  His family submitted a 
petition to have him recognized as a casualty of war.  He committed suicide at 
Walter Reed in their outpatient -- I don't believe it was a care facility.  It 
was like a motel room, outpatient living quarters.  And they successfully had 
him put on the Casualty of War list.
    They have opened the door for this to be recognized, and I would like to 
have my husband also on the Casualty of War list because I truly with all my 
heart believe that I have the medical evidence and just my own experiences 
that he suffered from this disorder.  And it will open the door further for 
other soldiers to be recognized and for the illness to be taken seriously.
    Mr. Michaud. Okay.  But as of yet, you have not asked and they have not 
offered that process to you as of yet?
    Ms. Pelkey. No one has offered to explain the process.  But I also have 
not inquired about the process.
    Mr. Michaud. Okay.  Thank you.
    Mr. Filner. Mr. Michaud, would you yield for a minute?
    Mr. Michaud. Yes.
    Mr. Filner. I do have some legislation aimed at Vietnam, that I think 
could be expanded here.  If you are a casualty but not from the battle itself 
in Vietnam, your name can't be on the wall at the Vietnam War Memorial.  And 
this seems to be the same problem.
    In other words, we do not recognize the heroism because of some 
bureaucratic sense that, you didn't die in battle.  We need to work together 
to make that happen both for previous wars and for this.
    Mr. Michaud. Thank you, Mr. Filner.  At this time I'd yield back my time.
    The Chairman. I'll be more than generous to give you time which Mr. Filner 
had taken from you.  All right.  Ms. Herseth.
    Ms. Herseth. Thank you, Mr. Chairman, and I apologize for arriving late to 
hear your testimony, but I've had a chance to review your written statement 
for the record, and I'd like to echo the thoughts of my colleagues here today.
    The Chairman. You know what, Ms. Herseth?  I apologize.  You need to stand 
down.
    Ms. Herseth. We should defer to other of my colleagues who have been here 
a while.
    The Chairman. We would request that you would defer to your -- 
    Ms. Herseth. That's what I will do.  Thank you.
    The Chairman. Thank you.  Ms. Hooley I think is next.
    Ms. Hooley. Thank you, Mr. Chair.  First of all, Mrs. Pelkey, thank you so 
much for taking your time to be here.  Your story reminds all of us that we 
need to have a comprehensive approach to addressing the mental health needs of 
our men and women of the armed services.
    With soldiers returning from Iraq and Afghanistan, it places a greater 
burden and demand on our VA hospitals. And I know that it is incredibly 
important that we have the means necessary to treat our soldiers that are 
returning.
    I'm from Oregon, and from our VA hospital, we have had, because of budget 
freezes, we've had to reduce the number of therapists.  For example, we're 
about 25 percent short of needed therapists in the Portland VA hospital. 
They've been asked to cut their sessions down from 50 minutes to 30 minutes. 
They've been asked to have a greater length of time between sessions.  It used 
to be well, can you deal with this in ten sessions?  Well, we all know when 
you have mental health problems, some of those sessions, I mean, sometimes you 
can deal with it fine, sometimes it's going to take 35 or 50, whatever it 
takes is what we need to be doing.
    One of the things -- because in Oregon we don't have a base, we have a lot 
of soldiers returning from the military, but a lot of them are Guard and 
Reserve.  So one of the things we did because we knew this was going to be a 
problem, and we brought everyone involved in the military together with 
employers.
    We brought our mental health workers together and said we need to do more 
than just a debriefing when the soldiers return.  We need to make sure their 
families are included, and that we do this not just the first time when they 
return, but we do it three months, six months, because a lot of these problems 
don't come up until much later.  I mean, sometimes it happens six months 
later, sometimes it happens a year later.
    My question is, what kind -- I mean, you talked a little bit about what 
resources were available and if you wanted to get in sooner than a month, he 
had to go off base. But is there now any place for a spouse to go or a soldier 
that's returning to just say, hey, something's wrong here?  I don't know what 
it is, but something's wrong.  Is there someplace you can go now?
    Ms. Pelkey. Yes.  And I apologize for only being able to use Fort Sill as 
a resource, but -- 
    Ms. Hooley. Right.  That's what you know.
    Ms. Pelkey. -- that's near and dear to my heart and they have done an 
excellent job in trying to reform their program, and they have also really 
started to focus on the spouses there.
    I know that just recently, a group of drill sergeants that returned from 
Iraq were counseled, and out of about 50 drill sergeants, 12 of those needed 
referrals, as well as they had a session with just the wives of the drill 
sergeants, and it was just kind of a closed, informal discussion.  And that's 
the way they're approaching it at Fort Sill is a comfortable setting.  These 
spouses all had a chance to say, you know, I feel the same way.  I feel like 
my husband is not here anymore, or he's disconnected.  He doesn't love me.  I 
don't feel pretty any more.  I don't feel wanted by my husband.  And they 
realized, hey, this is not just some kind of divorce phenomenon, it's for a 
reason.
    And that's the approach they're taking there. Another point I wanted to 
make is that the consistency with the care providers, whether they be primary 
care providers, physicians, or mental health physicians, the soldiers have 
even said, I see a different person every time.  I'd like to see the same 
person for at least six months, for at least a year, the same person who will 
be able to recall some of the things that I've spoke about, some of the 
things, the deep personal things that I've shared with them.
    And the armed services, they're having a problem keeping these contracted 
people to stay there for that length of time.  And they need to support, they 
need the money to keep that consistency, to keep those providers there for up 
to a year to follow up with these soldiers.  And they do need a system of 
checks and balances.
    And there are also hotlines that have been set up where even some soldiers 
can talk directly 24 hours a day to the on call mental health physician there. 
And they have actually intervened 20 suicide attempts.
    Ms. Hooley. That's really good news  The thing that bothered me most is 
that if you have to see a different person every time, it seems to me you're 
telling your story over and over and over again and not making forward 
progress.
    Did your husband when he came back, or did you --  did they talk about 
what signs to look for, for PTSD?
    Ms. Pelkey. They did not talk to me as a spouse about it.
    Ms. Hooley. Did they talk to him about what you need to look for?  Do you 
know if that happened?
    Ms. Pelkey. The only counseling my husband got when he came home was like 
I said, in the post-deployment health assessment, but they mostly talked about 
backaches, knee pains.  She made a referral to see a mental health physician, 
but like I said, in Germany at that time, there was only one or two 
psychiatrists for the whole community.
    Ms. Hooley. How long did it take before you or your husband recognized 
that this was a serious problem after he came back?  Was it a week, a day, two 
months?
    Ms. Pelkey. Well, initially, he showed signs of anxiety, appetite loss, 
but these all subsided within weeks. When we got back to the United States, it 
seemed like they were almost all gone and everything was back to normal.  And 
six months later, everything started to surface in small increments.
    The pistol, him sleeping with the pistol or carrying a loaded pistol 
around lasted for, you know, one to two months until I finally thought it was 
resolved.  He put it in a high place in his closet.  And I thought, okay, 
well, that's done. Then, you know, a couple of months later, he started having 
problems with his blood pressure, chest pains, erectile dysfunction, and --
thoughts.  Okay, well, he has a problem with blood pressure.  He got it 
physically treated with blood pressure medication.  The erectile dysfunction 
caused marital problems.
    Ms. Hooley. Right.
    Ms. Pelkey. But they are also noted physical symptoms of post traumatic 
stress disorder.  And I truly believe with all my heart that that was the root 
of our marital troubles, family problems.  And as a spouse, if I had been 
informed about these things and I had talked to other women or just a 
counselor about these things, I think that not only would I have understood 
what was going on, I would have urged my husband to get help more quickly, and 
I would not have had the reactions that I did to my husband's problems.
    When he would forget things, I would yell at him.  I would say how can you 
forget to mail a bill?  You're a captain in the Army.  I just don't 
understand.  You are not  -- this is not the same person that left.  But if I 
thought something else was wrong with him, I would have never labeled it or 
known that it was post traumatic stress disorder.  And with the intimacy 
issues, it's very personal, but it needs to be said.  A lot of the soldiers 
are suffering from intimacy issues with their wives, and I believe it's 
directly related to the high divorce rate.  Because that is one of the 
symptoms, and it does cause problems when you are so consumed with what you 
saw over there that you can't function with your wife and with your family.  
Some of the soldiers have even noted that they come home and they send their 
children to their rooms.  They don't want to interact with their families.
    The Chairman. Thank you, Ms. Hooley.
    Ms. Hooley. Thank you so much for taking your time and your testimony.
    The Chairman. Thank you.  I now recognize Ms. Berkeley.  Ma'am, she's our 
Ranking Member on Disability Assistance and Memorial Affairs from the State of 
Nevada.
    Ms. Berkley. Thank you, Mr. Chairman.  Mrs. Pelkey, I want to thank you 
very much for coming here and sharing what is a very intimate tragedy with all 
of us and with our country.  People need to hear these things.  While you were 
speaking and when I read your testimony last night, I was trying to put myself 
in not only your husband's place but in your place.  You never know how you're 
going to react to something unless you're actually thrust into the situation.
    I grew up during the Vietnam War.  I was in high school and college.  And 
so many of the kids that I went to school with that went to Vietnam came back 
dramatically changed, and it seems like those that were the most quiet and the 
most sensitive were the ones that were most dramatically affected by what they 
saw and experienced over there, and I suspect it's very similar in Iraq right 
now.
    What astounds me now as a member of Congress is that knowing what 
transpired in Vietnam with our veterans that returned and knowing the mental 
problems that they experienced, and knowing that so many of our homeless in 
this country are veterans of the Vietnam War, and I meet with my homeless 
veterans quite often in Las Vegas.  They're my contemporaries.  And, you know, 
you think if not for the grace of God.  They went to war as kids, 19, 20, 21 
years old, and they came back changed forever.
    I would have hoped by now that we would not put such a stigma on mental 
illness as to pretend it doesn't exist or to avert our eyes or don't put the 
necessary resources in so that we can truly holistically treat these men and 
women that are coming back and help to educate the families that are here so 
they could recognize the symptoms and get help.
    So it seems to me from what you were saying and from what I feel is that 
we need a multi-pronged approach to this, but we need to provide resources so 
we can counsel the families before their loved ones return so you know what to 
expect, and then put the necessary resources in so we can hire the right 
amount of professional people that deal with mental illness.
    Because you are quite right.  Taking care --  providing medication for 
high blood pressure or providing Viagra for erectile dysfunction is just 
superficially treating symptoms that aren't really going to get to the core of 
the problem.
    So I again want to thank you for being here and for all of your sacrifice 
on behalf of this country.  And let's make sure that your husband's death is 
not in vain and that we help hundreds of thousands of other Americans that are 
coming home and are suffering needlessly.  And if there's any way that we can 
help and support them, we should be in this with both feet.
    So thank you very much.  And perhaps if I can suggest it, I'm sure your 
member of Congress already has this in the back of his mind, perhaps you can 
work with him and make sure that your husband is recognized appropriately.  I 
think we would all be very happy when that happens for you.
    Thank you very much for being here.
    Ms. Pelkey. Thank you.
    The Chairman. Thank you, Ms. Berkley. Congresswoman Grace Napolitano, please 
come on up here and you may sit on the other side of Ms. Berkley.  That's where 
Mr. Udall sits.  You may join us here on the dias.
    She is Co-Chair of the Mental Health Caucus, and we welcome you to the 
Committee.  With no objection, we're pleased for you to join us.
    Okay.  Ms. Herseth, we've been waiting for this.
    [Laughter.]

    Ms. Herseth. Well, I appreciate that, Mr. Chairman.  And in deferring to 
my colleagues who have certainly shared with our witness today our concern, 
our empathy for the situation that you face and our appreciation for your 
courage and your willingness to share your experiences and how that guides 
this Committee and other members of Congress.
    Congresswoman Napolitano and the hard work that she's doing with many of 
our colleagues with the Mental Health Caucus to eradicate the stigma that Ms. 
Berkley indicated is a shame still exists.  And in your written statement, you 
had indicated that you sensed particularly perhaps in the military environment 
on the base how that may or may not be exacerbated when one returns and what 
that means for one's career and the fears that perhaps your husband had in 
that regard.
    So I appreciate you being here and working with us to address this issue 
as a matter of sufficient resources, but also how we go about allocating 
various resources in ways that are not only going to get at the heart of the 
problem but help us to identify what symptoms are becoming manifest sooner so 
that we can seek treatment that is going to be unique and particular to each 
individual based on what he or she may be suffering.
    Just a couple of questions.  The first is, some military treatment 
facilities are using nurses to help manage patients' care.  Do you believe 
that a person whose job it is to look at the whole picture of the patient's 
care may have helped your primary care doctor to connect the dots of your 
husband's symptoms and led to an earlier and better treatment of the PTSD 
from which he suffered?
    Ms. Pelkey. Yes I do.  And I believe that it is of tremendous importance 
for not only -- I know we've been talking about educating the families and the 
spouses and the children, but something has to be done also for the medical 
profession to also help them because they're overwhelmed. It's not -- it's a 
lack of education too there and a lack of time and a lack of funding there 
also.
    They do the same thing with pregnant women on most military posts.  I know 
when I was in Landstuhl, Germany, I saw a different provider every time, a 
different health care provider every time I was given a screening for my 
pregnancy. And it's the same thing that's going on with these soldiers. 
They're seeing some one different every time.  They need to see one person 
that's in charge of everything and that's keyed onto these physical symptoms 
also.
    Ms. Herseth. So your sense is that if we're addressing the issue of 
turnover and the need for the continuity of care, but at the same time looking 
at individuals that are providing health care to our veterans, perhaps nurses, 
where we may or may not have as much turnover based on which facility the 
soldier may be getting treatment, that if we at least in the short term while 
we address these issues going forward more effectively that there needs to be 
one person that you get to see on a more ongoing basis rather than, as you 
just described, someone different each time you come in, each week, each 
month, each three months, however frequently one is going to seek the care?
    Ms. Pelkey. Yes.  Consistency is -- 
    Ms. Herseth. And then the last question is, when you completed your 
service, were you briefed on your VA benefits and resources for your family?  
Were you aware that the vet centers offer bereavement counseling, and has the 
vet center in your area been of help to you and your family during your time 
of grief following your loss?
    Ms. Pelkey. When I exited the service of course my husband was not 
deceased, but I was given a very intense briefing on my benefits.  And I also 
had help with my disability, with my application for disability.  And, yes, I 
have used the grieving services with the VA.
    Ms. Herseth. I'm pleased to hear that.  And, Mrs. Pelkey, thank you very 
much for being here today.  I yield back, Mr. Chairman.
    The Chairman. Thank you very much.  And I yield to Mr. Udall.
    Mr. Udall. Mr. Chairman, thank you very much, and I appreciate very much 
the Committee focusing on this very important issue.
    Mrs. Pelkey, thank you for your testimony.  Clearly, it's very difficult, 
as all of us can see, for you to tell your husband's story here today.  But 
rest assured, I think with your courage and the courage of others and all of 
you stepping forward and talking about this, I think it really makes a 
difference in terms of moving the cause forward, and not only do we hear it, 
but I think the word spreads to many, many others.
    I was struck by what you talked about in terms of the contrast between the 
military and TRICARE.  And I think what I heard is that it was in TRICARE 
where this was discovered and was starting to be dealt with.
    And that tells me a couple of things.  One is that the military were not 
focusing enough, although there's very hopeful things you've talked about in 
terms of Fort Sill and the involvement that's going on there.  But tell me a 
little bit about the TRICARE situation and what enabled them to discover what 
was going on?  And did you feel that they were on the right path at the time?
    Ms. Pelkey. I believe the reason that my husband and I had to seek help 
from TRICARE is that the military, and especially the medical facilities, are 
not receiving the funding and the help that they need to make these diagnoses, 
have the consistency that I've been talking about.
    TRICARE offered marriage or family counseling for my husband and I.  And 
like I said in my testimony, we took it, because we felt at that point that 
our marriage was falling apart, and we wanted to save it.  And whatever you 
want to call it, TRICARE sent us to an off care provider for quote/unquote 
"family therapy."  That's what it was coded as.
    And I think that's where the problem is, is that a lot of these soldiers 
are having family problems and family issues connected to post traumatic 
stress disorder which you can directly link to the divorce rates and the 
suicides.
    But TRICARE does have off post providers, and she did immediately 
recognize the symptoms of post traumatic stress disorder.  I have a letter 
that she's written.  And I just really feel that the military medical 
community is overwhelmed with not only post traumatic stress disorder, but 
with everything that goes along with that; the families, the stress in the 
families.  I mean, so many things.
    I know as a soldier myself, I could get a same-day appointment to see a 
military medical doctor.  But the problem is, is that with post traumatic 
stress disorder, they just need some help with connecting the dots there, 
some kind of system of checks and balances.
    Mr. Udall. What was the time period from when he finished his service in 
Iraq until the actual family therapy and you started discovering what the 
problem was?
    Ms. Pelkey. Well, the symptoms started arising about six months after he 
came back from Iraq, and the family therapy started only one week before his 
death.  So it was a little over a year.
    Mr. Udall. And one of the things that I think you said that was striking 
about what they're doing at Fort Sill now involving group therapy and having 
the soldiers talk with each other.  And then the essence of that is really 
them not feeling that they're alone in these kinds of mental health issues 
that are coming up.
    Do you think that knowing what they're doing now and kind of seeing what 
is happening there at Fort Sill as a result of what they saw happen with your 
husband, that if he'd had that kind of support, that might have been a much 
different situation for him?  That if they had spotted it early and given him 
the opportunity to visit with other soldiers and have a chance to share the 
things that he was feeling inside, do you think there would have been a 
different outcome?
    Ms. Pelkey. I feel like there would have been a different outcome, because 
like I said, I think the soldiers that have served in Iraq in Operation 
Enduring Freedom, they have a comfort level amongst each other that is unlike 
being in front of a counselor, or unlike discussing it with your spouse who 
has no connection.  I mean, even though I was an Army captain myself, I hadn't 
been to Iraq.  So the comfort level still wasn't there between my husband and 
I.
    And what they've done at Fort Sill is provide a comfortable environment. 
I don't even know if this matters, but they've provided, you know, comfortable 
furniture, just kind of like a living room environment for these soldiers to 
sit down and share their thoughts on it.  And there's a moderator for this in 
which afterwards the soldiers, after they feel comfortable, can come up to 
that provider and ask for a referral, and that's how they're identifying most 
of the patients there is in these group therapy sessions that are being 
moderated.  And then afterwards, they all stand in line and, you know, take a 
questionnaire.
    But I do feel like this can be brought on on a bigger scale.  I mean, a 
facility to deal with post traumatic stress disorder in the same kind of 
comfortable environment. I can see it on a bigger scale.
    Mr. Udall. Mrs. Pelkey, thank you very much for your testimony, and we 
really appreciate you stepping forward on behalf of all veterans that are in a 
similar situation. Thank you.
    Ms. Pelkey. Thank you.
    The Chairman. I thank the gentleman for his contribution.  I ask unanimous 
consent from the members that Grace Napolitano of California, not a member of 
the Committee, would be recognized at end of all members of the Committee 
having asked questions, and if she would like to ask any questions, she would 
be recognized at this moment.
    Mrs. Napolitano. Thank you, Mr. Chair, and yes, I would.
    The Chairman. Hearing no objection, so ordered. You are now recognized.
    Mrs. Napolitano. Thank you, Mr. Chair, and thank you to the members.  I'm 
very interested in the issue of PTSD for a number of reasons.
    It has been something that has been a long-standing issue with city 
members of councils throughout the United States, simply because a lot of our 
soldiers from previous wars have not been able to deal with the issue of PTSD 
and end up being homeless, and therefore being found under freeway overpasses 
and in many areas of, especially cities like Los Angeles, where everybody 
thinks they're just crazy, and there's no way that anybody has been able to 
address the problem, wrap their arms around it, and be able to really identify 
what has happened to the individuals who have had a long-standing, 20, 30 
years of dealing with mental health issues.
    That said, I have been to both Bethesda and Walter Reed and have visited 
with some of soldiers that have returned with disabilities and asked the 
surgeons in charge whether or not they provide mental health services to the 
people they're treating.  The answer is yes, very, very good services.  They 
also have on the third floor the ability to have drop-in, day care, if you 
will, or big clinics rather.
    My concern has been that only those that are identified or self-identified 
get help.  Others go home thinking they can deal with it, that it is something 
that they can withstand, and eventually it begins to rear its ugly head. Just 
recently I was traveling to Washington, sitting in an airport next to an 
individual who wore a pin that I recognized, and we got into a conversation.
    And he indicated to me, because he asked me what Committees I sat on and 
what I was doing in Washington, and I indicated I was co-chair of the Mental 
Health Caucus, and he told me a story that kind of set me back, and that was 
that he was a Vietnam veteran and had 17 jobs in 20 years.  Something is 
wrong, that we are not helping our soldiers be able to cope with it.
    And, besides that, the most important thing, if a soldier is going home 
to a family, how is that family going to learn how to identify?  You're a 
captain.  You were able to understand because at least you've served with part 
of it, or you've been exposed to it.  What about the families that have not?  
Those that take irrational behavior as something they can no longer tolerate. 
And so then that individual either gets thrown out, or the family moves away, 
and they are left to their own devices.
    I have had individual VFW groups approach me that now they're seeing 
soldiers returning, needing help and asking them for help at the VFW and 
American Legion posts.
    We are not dealing with it.  And my concern has been that we need to not 
only deal with the actual service to the service individual, but also their 
family so that they can have a strong support system that can recognize and be 
able to refer them to adequate assistance, whether through the VA or a local, 
like a TRICARE, especially if the wife has additional insurance.  
Notwithstanding the fact that our medical institutions do not train doctors to 
recognize depression and areas that need to be recognized at any level, 
whether it's a soldier or an individual who has suffered trauma, which also is 
classified as PTSD.
    So I'm thankful that you're here, and I'm sorry --  thank you, Mr. Chair.  
It's of grave importance to all of us. And I think that we need to stress the 
need to expand beyond that scope of service that we are now rendering our 
servicepeople.  And I thank you so very much for being here and for being so 
open about your testimony.
    Thank you, Mr. Chair.
    The Chairman. I thank the gentlewoman for her contribution.  I'd like to 
thank you for coming.  And before you leave, would you please introduce the 
lady who is accompanying you to your right?
    Ms. Pelkey. This is my dear friend, Sherry Forbish, who is actually the 
moderator of my grief group through my church in my home town, and she's been 
a tremendous support to me as well as my Christian church community.  And 
she's a wonderful friend.
    The Chairman. At any time did you ever turn to the chaplaincy corps of the 
Army?
    Ms. Pelkey. Yes.  We did receive or go for marriage counseling twice to a 
chaplain.  However, I do want to say that he was a family friend.  So some of 
the things we were sharing with him were, you know, on a very personal level 
and just more personal than we would have been with just a counselor I think.
    The Chairman. People know their boundaries, right?
    Ms. Pelkey. Yes.
    The Chairman. Whether it's the chaplaincy, whether it's therapists, 
whether it's psychiatry, whether it's an MD or internal medicine, everybody 
knows their boundaries, but they also then do referrals, right?  When they 
know it presses the bounds, then they do that referral.  But did referrals 
occur here from the chaplaincy?
    Ms. Pelkey. No.  We again saw him for two sessions, and there of course 
were other things discussed.
    The Chairman. Right.
    Ms. Pelkey. And I think it's a good point too that the chaplains need to be 
educated on this, because a lot of soldiers do feel very comfortable with 
turning to the chaplains.  But you also have to remember that chaplains are few 
and far between, and they're very short-handed on chaplains also.
    The Chairman. The point is, there are many different entries.
    Ms. Pelkey. Yes.
    The Chairman. Let me conclude with this, ma'am. You have within your rights 
to make an appeal through the Surgeon General of the Army with regard to your 
husband's case, and you have a very able and compassionate Member of Congress 
there to your left who can also be of assistance to you in that appellate right.  
And I would encourage you to do that.
    Mr. Filner. Mr. Chairman?
    The Chairman. Mr. Filner.
    Mr. Filner. I just want to follow up on that if I may.
    The Chairman. Sure.
    Mr. Filner. Have you met with the Secretary of VA or Secretary of Defense, 
or have you requested that?
    Ms. Pelkey. No sir, I haven't.
    Mr. Filner. Mr. Chairman, I think this Committee should work with Mrs. 
Pelkey to try to get those appointments. I think it would be very helpful.  As 
you saw, she's an incredible source of knowledge and compassion.  And I would 
hope that we could help her get those appointments.
    I thank you for yielding.
    The Chairman. If I may finish, ma'am, I would encourage you to work with 
your congressman, who understands this process.  You are here as a witness of 
this Committee. We will work with him.  You do not need an appointment with 
the Secretary of Defense or with the Secretary of the Army. There are 
processes for this to occur, and we will work with you to do that.
    I think what would be helpful here also is if I invite you to stay, 
because we have two more panels that are going to testify, and we're going to 
hear from the Army.  We're going to also hear from experts.  And I'd like for 
you to listen to what they have to say, and then I'd like to come back and 
speak with you afterwards about your thoughts on what you hear.  Will you be 
helpful to us in that fashion?
    Ms. Pelkey. Yes.  I would be proud to.
    The Chairman. All right.  Thank you very much.  We appreciate your 
testimony.
    Ms. Pelkey. Thank you.
    The Chairman. Thank you.  You are now excused.
    The second panel would please come forward.  And when they step up from 
their seats, ma'am, you can occupy one of theirs.  First is Colonel Charles W. 
Hoge, M.D., who currently directs collaborative research programs to enhance 
resiliency and reduce the impact of mental disorders among soldiers and their 
family members.  He directs the WRAIR Land Combat Study designed to assess the 
mental health impact of Operation Iraqi Freedom (OIF) and Operation Enduring 
Freedom (OEF), and identify new prevention and intervention strategies.
    Next we will hear from Colonel Charles C. Engel, Jr., M.D., MPH.  He is 
the Assistant Chair of the Department of Psychiatry at the Uniformed Services 
University and the Director of the Department of Defense Deployment Health 
Clinical Center at Walter Reed in Washington, D.C.  He was the 1st Cav 
Division Psychiatrist during the 1991 Gulf War and since then has served as a 
DOD medical adviser on post-war physical and mental health, particularly as 
it relates to post-war idiopathic physical symptoms, physical health concerns, 
and the improvement of post-deployment clinical services.
    We'll then hear from Matthew J. Friedman, M.D., Ph.D.  He is the Executive 
Director of the U.S. Department of Veterans' Affairs National Center for Post-
Traumatic Stress Disorder, and Professor of Psychiatry and Pharmacology at 
Dartmouth Medical School.  He has worked with PTSD patients as a clinician and 
researcher for 30 years, and has published extensively on stress and PTSD, 
biological psychiatry, psychopharmacology, and clinical outcome studies on 
depression, anxiety, schizophrenia, and chemical dependency.
    We'll then hear from Alfonso R. Batres, a Ph.D. MSSW.  He is the Chief 
Officer of the Department of Veterans' Affairs Readjustment Counseling 
Service.  He has direct oversight of the 206 Vet Centers providing 
readjustment counseling service to war zone veterans nationally.  He is 
recognized as a national and international leader in pioneering the 
development and provision of services for veterans with combat-related trauma.  
Dr. Batres serves on the VA's National Leadership board and is currently 
extensively working in the VA's response to the needs of returning combat 
veterans of Iraq, Afghanistan and the Global War on Terrorism.
    We'll then hear from Terence M. Keane, Ph.D.  Dr. Keane is a Professor and 
Vice Chairman of Research and Psychiatry at Boston University of Medicine.  He 
is also the Chief of Psychology and Director of the National Center for PTSD 
at the VA Boston Healthcare System.  The past President of the International 
Society for Traumatic Stress Studies, Dr. Keane has published three books and 
over 140 articles on the assessment and treatment of PTSD.  His contributions 
to the field have been recognized by many honors, and we appreciate you being 
here today.
    At this point, I will now yield to Dr. Hoge.  You are recognized.

STATEMENTS OF COLONEL CHARLES W. HOGE, M.D., CHIEF
    OF PSYCHIATRY AND BEHAVIOR SCIENCES, DIVISION
    OF NEUROSCIENCES, WALTER REED ARMY INSTITUTE 
    RESEARCH, UNITED STATES ARMY; ACCOMPANIED BY 
    LTC CHARLES C. ENGEL, JR., M.D., MPH, CHIEF, DOD 
    DEPLOYMENT HEALTH CLINICAL CENTER, WALTER REED
    ARMY MEDICAL CENTER, UNITED STATES ARMY; 
    MATTHEW J. FRIEDMAN, M.D., PH.D., EXECUTIVE 
    DIRECTOR, NATIONAL CENTER FOR POST-TRAUMATIC
    STRESS DISORDER, DEPARTMENT OF VETERANS' AF-
    FAIRS; ALFONSO R. BATES, PH.D., MSSW, CHIEF, OFFICE
    OF READJUSTMENT COUNSELING, DEPARTMENT OF VET-
    ERANS' AFFAIRS; AND TERENCE M. KEANE, PH.D., PRESI-
    DENT, ASSOCIATION OF VA PSYCHOLOGIST LEADERS, VA
    BOSTON HEALTH CARE SYSTEM

STATEMENT OF DR. CHARLES W. HOGE

    Dr. Hoge. Thank you, Mr. Chairman, and members of the Committee.  It's a 
great honor -- 
    The Chairman. If you could pull the mic closer to you and turn it on. 
Thank you.
    Dr. Hoge. It's a great honor to be here and I thank you for the 
opportunity to discuss the Army's research on PTSD and other mental health 
issues associated with deployments to Iraq and Afghanistan.
    I'm also grateful for the opportunity that I had to be here for the moving 
testimony of Mrs. Pelkey and the subsequent questions from the Committee.
    I'm Colonel Hoge.  I'm Chief of Psychiatry and Neurosciences at Walter 
Reed Army Institute of Research.  The Army and Department of Defense have 
taken a proactive approach to understanding and mitigating the mental health 
concerns associated with deployments to Iraq and Afghanistan.  We've made it a 
priority to learn as much as possible and adjust programs as the war is 
ongoing to meet the needs of our service members and their family members. 
And your interest in this matter along with previous support from Congress has 
greatly enhanced the body of scientific knowledge.
    Mental health symptoms are common and expected reactions to combat, an the 
research following other military conflicts has demonstrated that combat 
exposure confers considerable risk of mental health problems, to include PTSD, 
major depression, substance abuse and social, family, and occupational 
problems, as we've heard previously.
    However, virtually all studies that have assessed the mental health 
effects of prior combat in prior wars, including the first Gulf War, we 
conducted years after soldiers returned from the combat zone.  To address 
these concerns, a team of Walter Reed Army Institute of Research, which I'm 
privileged to lead, initiated a large study in January 2003 with support from 
senior Army medical and line leaders and Marine line leaders as well, to 
assess the impact of current military operations on the health and well being 
of soldiers and their family members.
    This study is ongoing, and we have collected over 20,000 surveys to date 
from soldiers from multiple brigade combat teams deploying to Iraq and 
Afghanistan, both active component and National Guard, as well as personnel 
from Marine Expeditionary Forces.
    We have conducted assessments now out to 12 months after returning from 
deployment.  We've published results of our initial findings from three months 
post-deployment in July of 2004.  We have also conducted similar assessments 
in theater as part of the mental health advisory team efforts.
    Our studies confirm the importance of PTSD and other mental health 
concerns associated particularly with deployments to Iraq.  Overall, based on 
our latest findings, 15 to 17 percent of service members surveyed three to 
twelve months post-deployment met the screening criteria for post traumatic 
stress disorder, and 19 to 21 percent met criteria for depression, PTSD and 
anxiety.  In parallel with our survey-based data, there has also been a 
substantial increase in military health care utilization and use of military 
heath services in military treatment facilities among our OIF veterans.
    Alcohol misuse, which is strongly associated with PTSD, also has increased 
post-deployment.  Other outcomes that we're looking at include aggression in 
family functioning, and preliminary data indicates that there are likely 
deployment-related effects in these areas similar to what previous studies 
have shown.  The strain of repeated deployments on soldier and family well 
being is evident in some units anecdotally.
    One of the most important findings of our research is what we've learned 
about barriers to care in the military, particularly stigma.  Our studies 
showed that soldier and marines are not very likely to seek professional help 
if they have a mental health problem, and they are concerned that they may be 
somehow treated differently if they do.  Our data has helped us to focus on 
approaches to facilitate access to care.
    We're conducting a number of ongoing research projects to improve 
identification and intervention, reduce stigma and barriers, and our primary 
focus really is on improving access to care.  And we're also attempting to 
evaluate programs that are being implemented, such as the Department of 
Defense post-deployment health assessments.
    Our research has shown that soldiers are much more likely to report their 
mental health problems three to four months or subsequently after coming home 
than immediately on their return.  And as a result, DOD has expanded the post-
deployment health assessment program to include a survey now at three to six 
months post-deployment.  We are also evaluating interventions such as 
psychological group debriefings, and we're developing standardized training 
modules for soldiers, leaders, and health care providers.
    Considerations for improving assess to care include co-locating mental 
health services in primary care clinics. And we heard this morning discussion 
about the fact that soldiers, virtually all soldiers access primary care, and 
this is obviously one portal for soldiers to get help.
    We want to improve awareness among primary care professionals of 
depression, PTSD evaluation and treatment, and it's important to ensure that 
there's adequate resources to support continued services in the operational 
setting in Iraq and Afghanistan as well as to ensure that service members who 
are identified through our screening programs or who refer themselves receive 
timely evaluation and treatment.
    One of the most important aspects of our work is to provider the best 
interventions within the medical model of care while conveying the message to 
our service members that many of the reactions that they experience after 
combat are common and expected.  Helping to normalize these reactions is a 
key to stigma reduction and early intervention.
    Thank you very much.
    [The statement of Dr. Charles W. Hoge appears on p. 84]

    The Chairman. Thank you very much for your testimony.  Colonel Engel, you 
are now recognized.

STATEMENT OF DR. CHARLES C. ENGEL

    Dr. Engel. Mr. Chairman, members of the Committee, I appreciate the 
opportunity to appear before you today and discuss the ways that the 
Departments of Defense and Army are working proactively to identify and help 
military personnel with mental illness after service in Iraq and Afghanistan. 
We appreciate Congress's interest in this topic and this Committee's 
consistent support of DOD and VA mental health.
    I have three main points.  First is the need to bring safe, accessible and 
confidential care to service members rather than waiting for them to seek 
care.  Second, primary care affords an excellent opportunity for early 
recognition and care.  And third, many DOD efforts are currently underway to 
reach out to providers, service members, families, the severely ill and 
wounded.
    I am privileged to direct a unique DOD center of health care excellence 
called the Deployment Health Clinical Center.  We began caring for Gulf War 
veterans in 1994 at Walter Reed.  In 1999, we were designated the Deployment 
Health Clinical Center, and our mission expanded to include provision and 
improvement of tri-service post-deployment medical care.
    We have provided care for over 15,000 service members with health concerns 
following service in various deployments, including Iraq and Afghanistan.  We 
have helped those with both physical and mental wounds.  Colonel Hoge tells us 
mental illness occurs to one in four of those returning from Iraq, with rates 
rising.
    A study of injured soldiers evacuated through Walter Reed led by CPT Tom 
Grieger, Colonel Steve Cozza, shows that about half of those with initial PTSD 
and depression quickly improve, but overall, rates rise two- or three-fold in 
the next few months.
    What should we do abut this?  First, we must provide, safe, confidential 
and continuous care.  We cannot diagnose mental illness simply by looking, 
and there are no laboratory tests.  We must build trust so service members 
offer frank accounts of their mental state and we can do accurate screening 
and provide proper care.  Without protection from adverse career actions, 
mental illness is driven underground.  Soldiers keep problems private until 
they balloon out of control, and we miss opportunities to prevent tragedies 
and threats to mission success.
    Second, Colonel Hoge's data reinforced civilian findings that most people 
with trauma-related mental illness don't receive care.  Misconception, stigma 
and local barriers to care are prevalent.  These data compel is to bring 
services to soldiers rather than waiting for them to seek it.
    Third, mental illness occurs on a spectrum of severity, and we must 
provide care to the whole spectrum.  A mild definition of PTSD yields rates of 
pre-war PTSD of nearly 25 percent, and post-war rates over 50 percent.  This 
tells us that many are distressed after war, and most distressed is not 
severe.  Only 5 to 10 percent of military personnel seek specialty mental 
health care every year, but over 90 percent use primary care.  The impact 
will be great if we improve the mental health of those getting primary care.
    Deployment Health Clinical Center has partnered with the MacArthur 
Foundation, Dartmouth, Durham VA, and Indiana University in a Fort Bragg 
Primary Care Improvement Initiative.  The goal is successful implementation of 
VA-DOD mental health guidelines.  The program is called "RESPeCT-MIL" and 
builds on a scientifically tested approach for depression developed by Allen 
Dietrich at Dartmouth.  Use of RESPeCT-MIL improves continuity, maximizes 
existing primary care resources, and frees mental health providers to practice 
specialty care.  We look for broader implementation and evaluation in the 
future.
    Many with PTSD may benefit from psychosocial approaches offered in primary 
care.  Our investigators have collaborated with Brett Litz of the Boston VA 
and the National Center for Post Traumatic Stress Disorder, Richard Bryant in 
Australia to develop an NIH-funded computer-assisted therapy tool called 
DESTRESS.  DESTRESS offers anonymity and a scientifically valid approach that 
primary care doctors can prescribe to patients in need.  Many will obtain 
relief, and for others, DESTRESS may reduce stigma.
    We are also pushing information to clinicians through the Deployment 
Health Clinical Centers pdhealth.mil website and Uniformed Services 
University's Courage to Care program.  pdhealth.mil gets over 700,000 hits a 
month. Thirteen hundred providers receive our daily science and news e-mail 
digest, and we have distributed 10,000 deployment health tool boxes to primary 
care providers across the services.  We also run toll free telephone and 
e-mail help line for providers, service members and families.
    Providing care for the severely wounded and ill is a fulfillment of a 
scared trust, the promise every combat medic makes to assist injured comrades. 
Walter Reed's Psychiatry Consultation Service led by Hal Wain follows ever 
wounded soldier.  Deployment Health Clinical Center serves as a worldwide 
referral center for severe post-deployment illness. We have run nearly 120 
cycles of two different specialized care programs, one for unexplained illness 
and another for PTSD.
    We published the unexplained illness approach in JAMA, the Journal of the 
American Medical Association, after a 20-site VA cooperative studies program 
study.
    Mr. Chairman and members of the Committee, I hope I have communicated my 
three main points.  First, we must bring safe and confidential mental health 
care to service members rather than waiting for them to seek it.  Second, 
primary care is an excellent opportunity for doing just that.  And third, many 
DOD efforts are underway to reach providers, service members, families, the 
severely ill and the wounded.
    The Deployment Health Clinical Center and its devoted staff are privileged 
to assist the inspiring men and women who serve our nation.  We owe our 
success to an unwavering support from Congress, DOD, Uniformed Services 
University and the Army Medical Department.  Thank you for allowing me to 
appear before you today.  I would be pleased to respond to any questions from 
members of the Committee.
    [The statement of Dr. Charles Engel appears on p. 91]

    The Chairman. Thank you very much for your testimony.  I now recognize Dr. 
Friedman.

STATEMENT OF DR. MATTHEW J. FRIEDMAN

    Dr. Friedman. Mr. Chairman, distinguished members of the Committee, I am 
Matthew Friedman.  I am the Executive Director of VA's National Center for 
PTSD, Professor of Psychiatry, Pharmacology and Toxicology at Dartmouth 
Medical School.
    I've been a VA psychiatrist for over 30 years and spent much of that time 
treating men and women who have developed PTSD and other problems as a result 
of their service in combat areas.
    I've been asked to comment on the PTSD syndrome itself, and I've submitted 
extensive information about that in my written testimony which I will not 
cover in my oral comments.
    I would like to emphasize, however, as have the previous speakers, that 
most people who return from a combat zone do not have psychiatric or 
psychological problems.  A large number of them who do, have transient 
problems, adjustment disorders, from which they recover quite quickly. But 
there is a significant minority, an important minority, who will develop 
recurring and sometimes totally incapacitating psychiatric problems, of which 
PTSD is the most symptomatic.
    I've been asked to comment about the comparisons between the current 
situation and the post-Vietnam era in which I cut my teeth as a clinician.  
And I think the news is good.  I want to emphasize two points in particular. 
First of all, when our men and women returned from Vietnam, they returned to 
a hostile public, a public that did not reward or recognize their courage. 
That's not the case today, and I think it's very important.  We know that 
social support is a key factor in whether or not people are going to 
readjust successfully after their combat experiences.  Hopefully it is a 
very good sign that we're having these hearings today which may help our 
returnees from the OIF and OEF deployments.
    The second news is also good, and that is that there has been a great deal 
of scientific progress in the past 30 years.  When we were first faced with 
the Vietnam veterans, we didn't have any evidence-based treatments.  We didn't 
really know what to do for them.  It was really a bootstrap, 
seat-of-your-pants type of an operation.  Now we have medications that work, 
two of which have FDA approval.  We have psychosocial treatments that are 
very, very effective.
    Last year there was a joint VA-DOD practice guideline process to develop 
state-of-the-art, evidenced-based treatments for PTSD.  And now the VA has 
made an institutional commitment to support that effort through a best 
practices project through which PTSD will be the pilot project to disseminate 
this information so all VA clinicians can provide the best care for people 
who come into our offices.
    The problem is, will they come?  Will the stigma that Dr. Hoge's research 
has indicated keep them away?  Will they know, as Mrs. Pelkey did not know, 
what's available, what the signs of PTSD are, what kinds of services are 
available should they recognize a treatable problem among a loved one or 
within themselves?  I think that the challenge of dissemination of 
information to families and to servicemen and to veterans is a great one and 
a very, very important one.
    Unlike our DOD colleagues, we VA clinicians do not have a mandate to 
provide direct services to families.  I think that's a disadvantage, with the 
glaring exception -- or the wonderful exception of the Vet Centers that Dr. 
Batres will comment on, we clinicians can only see families as adjunctive to 
treatment of our veterans.  I think that were our mandate changed and there 
were appropriate resources to serve that mandate, we could do a much better 
job and perhaps prevent some of the problems that might otherwise develop.
    In addition to my concern about stigma, I'm worried about the Guard and 
reserves.  And I've commented on that in two "New England Journal of Medicine" 
editorials.  They really fall into the cracks.  Will they recognize what's 
available in the VA hospitals?  Will they know about their eligibility?  I 
don't know.  I think we need to make every effort to inform them.  To get the 
word out.
    Other concerns are military sexual trauma, which is even more toxic than 
combat trauma, in terms of producing PTSD.  I'm concerned about the men and 
women returning from these deployments, who will have severe medical problems.  
A loss of limbs, loss of eyesight.  Other kinds of persistent problems.  
They're a very high risk for PTSD, and we need to be able to monitor and 
provide the best treatment that we can.
    We need to recognize that we have a new, young cohort of people seeking 
our treatment, with fresh trauma problems, and we need to be able to provide 
the best services. In short, the VA has the best expertise, the most 
sophisticated clinicians, the best spectrum of treatment in the world.  We 
need to make sure, and cherish what has been accomplished, and have our 
services available, so that we can help those who seek our help.
    My final comments, which I'll run through quickly, concern collaborations 
between the National Center and the DOD.  You've heard about three of them.  
We've been working with Colonel Hoge, in terms of the de-briefing study which 
was done in Kosovo and which will be repeated with OIF/OEF troops.  We're 
working with Dr. Engel on the Web-based treatment at Walter Reed, as well as 
the pilot project at Fort Bragg, integrating primary care and mental health 
care, which, I think, had it been accomplished, might have helped Mrs. Pelkey 
and her husband.
    We're looking at doing brain imaging, with troops from Fort Drum, as well 
as drug studies.  We're doing a major post-deployment study of 17,000 troops. 
And so, I would like to close by just thanking the Committee for its attention 
and concern, and thanking all the support that we've received from VA and DOD. 
Thank you.
    [The statement of Matthew J. Friedman appears on p. 103]

    The Chairman. I thank the gentleman for his testimony.  And could we pause 
to ask Colonel Hoge, Colonel Engel, Dr. Friedman, Dr. Batres, Dr. Keane -- do 
each of you have written testimony?  And would each of the witnesses like that 
to be submitted for the record?  All witnesses have answered in the 
affirmative.  
    Hearing no objection, it will be so ordered.
    We'll now recognize Dr. Batres.

STATEMENT OF DR. ALFONSO R. BATRES

    Dr. Batres. Thank you, Mr. Chairman and Committee members, for the 
opportunity to present on services provided by the program that I am 
privileged to head, to returning veterans from Operation Enduring and Iraqi 
Freedom.
    I just wanted to add a few brief points to the comments I submitted to the 
Committee with my written testimony.  The VA program that I represent, was 
initiated by Congress 25 years ago, to address readjustment challenges in 
Vietnam combat veterans.  Matt Friedman, to my right, was one of the field 
docs who actually was instrumental in putting up one of very first Vet 
Centers, at that time.
    The Vet Center is the first of its kind, and represents the foundation 
from which VA became the world leader in providing these services to war 
veterans.  The Congress subsequently extended these services to all our combat 
veterans and their families.  Therefore, any veteran who served in a combat 
zone, is eligible.  Not unusual to find a World War II veteran alongside with 
a Korean War veteran, and now, an Iraqi Freedom veteran, at our Vet Centers.
    The heart of our program is veterans and their families.  The 207 Vet 
Centers dispersed nation-wide are staffed, primarily, by veterans, many of 
whom have served in a combat zone, and who understand the culture of the 
military, and the sacrifices that service members make to this country.
    On a personal note, I want to put into the record that my dad was a World 
War II veteran, as well as his five brothers.  They all served in World War 
II.  I am a Vietnam combat veteran, and I have a son who served in the Persian 
Gulf, with the 82nd Airborne.  I am typical of the employees in the Vet Center 
program.
    The Vet Center program is a VA gold standard in veteran and family 
satisfaction.  99 percent of our clients and families not only rate us highly, 
but they would recommend us to other veterans.  We are also the gold standard 
in VA, for employee satisfaction.  We are located in easy-to-access locations 
within their community, and we have minimal bureaucratic barriers to accessing 
care.
    A veteran will be seen when they walk in -- we have no waiting list -- 
along with their families.  The program laid the foundation for outreach 
services to combat veterans in our great country, characterized by a focus on 
providing a safe, confidential environment, where veterans who have been 
traumatized, or have gone through experiences, can come in, and receive timely 
and friendly services.
    In Fiscal Year 2003, with a few months of war under our belts, we saw 
about 1,900 OEF/OIF veterans.  In Fiscal Year 2004, we saw over 9,600.  And 
for this year, we're projecting over 14,000 new OEF/OIF veterans walking 
through our Vet Centers.  They currently represent about 10 percent of our 
client workload.
    We do not include in this count, the growing number of veterans and their 
families, to whom we provide education, de-briefing, and outreach services to 
beam-up sites, and National Guard and Reserve locations all over this country. 
In order to get a better handle on that, we just did a survey for the month of 
June in this Fiscal Year, in which we documented 5,000 servicemen and women in 
that particular month, who received services in that category.
    Included in that are family members of National Guard and Reserve folks, 
who have deployed, but are currently not eligible for VA services, because 
their family member is an active military member.  We are reaching a fair 
amount of these veterans, but I have to honestly say that we have a lot of 
work to do, in making sure that we are providing comprehensiveness to all 
these veterans.
    The Secretary of VA, and my bosses, Dr. Kussman and Dr. Pearlin, 
authorized the hiring of 50 veterans from Operation Enduring Freedom and Iraqi 
Freedom, to become outreach workers for my program, approximately a year ago. 
Again, these are recently-returned combat veterans, many of them disabled, who 
have recently returned from their tours in Iraq and Afghanistan.
    The initial 50 program proved so successful, that the underSecretary has 
authorized an addition 50 FTEE positions for this year.  These veteran 
employees continue the program emphasis -- our program emphasis on hiring 
veterans into the VA.
    As you have read in my written testimony, we have initiated a bereavement 
program for family members of those who died while on active duty.  In 
coordination and referral from DOD casualty assistance officers, we have 
provided services to well over 400 families in the last year and a half.  The 
majority -- over 300 of them -- coming from KIAs in Iraq.
    Our standard is to offer services directly to the family, within two days 
of the notification, in the community in which they reside.  We will be 
conducting an analysis of our year-and-a-half worth of work with DOD, to see 
if we can improve on our services, and get feedback from our consumers, about 
how we can move to improve these types of services.
    We are very cost effective in that.  As a rough benchmark, the VA reported 
OEF/OIF veterans who have been seen for comparable mental health services 
within the VA.  Our numbers are about 50 percent of those that have been seen. 
It's not including in the ones we provide outreach services to. 
    The Vet Centers continue to provide a unique service, that is integrated 
with traditional mental health services, and adds value to serving veterans 
and their families.  I don't want to confuse what we do, with what the VA 
medical centers do.  We only provide one component of the services, primarily 
focused on outreach, assessment, and treatment of veterans who are closer to 
home, and may not require the extensive services that VA offers.
    The DOD concepts of having mental health services available to soldiers 
while in the combat area, represent a major investment in dealing with the 
social and psychological psycholi of combat service.  The study by Colonel 
Hoge, and the work done by Dr. Engel -- Colonel Engel -- are really 
instrumental in providing a continuum of care for the soldiers.
    The soldiers are going to face a transition, where when you blink, you go 
from a very supportive community environment, back into civilian life.  And I 
think they need all the assistance that we can provide to them, to make that 
step into civilian life.  And to keep them healthy, and connected.  And quite 
frankly, to provide a varied assortment of service, to include employment 
issues.  Benefit kinds of things, that is critical, not only to the soldier, 
but to their family, in an integrated fashion.
    Yesterday, I heard a presentation by the surgeon general of the Navy, I 
believe VADM Arnold, who described their Marine Corps OSCAR teams, and how 
they operate.  Along with the Army combat stress teams, I think the Marine 
Corps has done an exceptional job -- both of them have -- in developing these 
types of interventions within the combat zone.
    The OSCAR teams are embedded in their unit, and are not a separate 
component, or a medical unit, therefore, promoting an integration into the 
Marine Corps unit, for functioning.  This is an exact model of how Vet Centers 
operate.  We are embedded in your local communities, and geographically 
located outside of VA medical centers.
    This goes a long way to avoid the stigma of accessing care, and promotes 
the normalization of issues that will arise in most of our veterans, that 
being the recognition that serving in a combat zone presents challenges to any 
soldier.  And that the integration of these types of services, as has been 
indicated before, is really critical.  Thank you.
    [The statement of Alfonso Batres appears on p. 111]

    The Chairman. Dr. Batres, on behalf of this Committee, let me extend an 
appreciation to your family, for their service to their country, not only 
including your uncles and your father, but yourself and your son.
    Mr. Batres. Thank you, sir.
    The Chairman. Dr. Keane, you're now recognized.

STATEMENT OF TERENCE M. KEANE

    Dr. Keane. Thank you, Mr. Chairman.  And thank you, too, members of the 
Committee, for permitting me to testify here today, with my distinguished 
colleagues.  Today, I am representing the Association of VA Psychologist 
Leaders. And while I've spent some 28 years in the Department of Veterans' 
Affairs, in three different VA medical centers, as chief of psychology, my 
comments today represent that group of VA psychology leaders.
    The VA represents the best in mental health systems in the world.  This 
has been touted in both the "New England Journal of Medicine," as well as in 
the "Lancet" in the past two years.  With expertise in post-traumatic stress 
disorder, schizophrenia, the neuro sciences, geropsychiatry, and substance 
abuse, we address the full range and spectrum of combat-related psychological 
problems.
    With reference to today's hearings, I do want to say that as a professor 
and faculty member at Boston University, one of the largest health care 
systems in the City of Boston, there is not a single expert in the area of 
post traumatic stress disorder on faculty.  Not one.  It would seem hard for 
me to fathom how private-sector resources could be marshalled to provide the 
kinds of care that's provided by VA, in the Vet Center program, and in the 
many different installations across the country.
    I do want to comment, for a moment, about the VA's leadership role in the 
President's New Freedom Commission. The VA has established an outstanding 
action agenda.  And with the current administration, there is tremendous 
support for moving forward, and implementing many of the ideas represented, 
and creatively developed, by the VA mental health care employees.
    There are many examples of VA's tremendous support for the returning OEF 
and OIF veterans.  But there are also some important issues for us to discuss 
here today.  Our group -- and that is the AVAPL VA psychologist leaders --  
fully supports the notion of a fully-resourced President's New Freedom 
Commission agenda.  These resources should be implemented.  They should be 
evaluated, they should be monitored.
    And the question that remains for us, is how will these resources, and a 
system that is strained for resources -- how will these resources be 
protected, to ensure that they deliver the kind of care that is intended?  
With the growing numbers of mental health needs, we also, in VA, need to 
employ the most contemporary, the most creative methods of delivery of 
services.
    This will require that our aging workforce be re-tooled, and re-trained, 
with a major educational initiative.  And what direction should this take?  
This should be training in the use of tele-health, already one of Dr. 
Pearlin's major initiatives.  This should be directed in the area of mental 
health, so that services can be provided.  As well, Web-based interventions 
should be prioritized, so that patients can get needed education, and needed 
support, when and where they need it.
    We have information that the availability of Internet is quite strong, 
among younger generations, and we should make use of this resource for the 
delivery of whatever services are viable in that modality.  As well, continued 
collaborations with the Department of Defense, in integrating care and 
conducting research on these newest veterans, needs to continue to be the 
highest priority.
    Our organization also supports, as many of my colleagues have already 
stated, the changes in eligibility that have already been made, and would like 
to see increased eligibility, again, for families, for spouses, for partners, 
affected by activation, deployment, injury, of death.  As well, we support the 
completion of the National Vietnam Veterans' Longitudinal Study.
    We support the completion of this study, not only for what it will tell us 
about Vietnam veterans, the largest cohort of veterans that exists in VA 
today, but as well, what it will tell us about the current group of the newest 
veterans.  Our group also supports an increase in the research budget that's 
allocated to study mental health and behavioral health problems.
    It is, indeed, the case, that the behavioral science, the mental health 
research workforce, is graying in VA.  There needs to be a concerted effort to 
support junior people, to study the problems associated with military service, 
and combat trauma.  But as well, and perhaps, most importantly, from my 
perspective, behavioral health services, psychiatric and psychological, need 
to be paired with physical rehabilitation, in order to maximize and optimize 
the outcome.
    VA is one of the world's leaders in the area of physical rehabilitation. 
We suggest that combining mental health services, at significant levels, with 
the outstanding physical rehabilitation, will yield the best possible outcomes 
for the people who are so injured.  There are many other recommendations 
reflected in my written report.  I'd be happy to answer any questions, and 
thank you all for the opportunity to speak with you here today.
    [The statement of Terence Keane appears on p. 118]

    The Chairman. Thank you very much for your testimony.  I would like to 
exercise a cautionary counsel to my colleagues, with regard to Mrs. Pelkey's 
testimony from the first panel.  Only she has the right to privacy, and if she 
waived the right to privacy, with regard to her comments regarding her 
husband's case, we now know that she has an interest in filing an appeal with 
the surgeon general of the Army.
    So, I would exercise caution, and I think it would be inappropriate to ask 
any of the experts on this panel or the next panel to comment directly upon 
her husband's case.  But obviously, process and procedures are open.  And that 
would be my counsel to my colleagues.
    Where do new doctors turn in the private sector, and in military settings, 
to gain awareness and then develop an expertise with regard to how to deal 
with PTSD? Because it's not just those who serve in the military.  You're also 
dealing with police officers, after gun battles.  You're dealing with 
firefighters.  You know, the first responders in our society.
    We also have teams that will arrive upon the scenes of tornadoes, 
hurricanes, and traumatic events. So, how are we doing as a country, and where 
is this really being generated?  I'll just open it up.  Anybody that would 
like to comment.
    Dr. Keane. I'll begin.  I'm sure there'll be others who will speak.  It is 
a major initiative of ours at the National Center for PTSD, to try to 
influence the education and training programs, in both psychiatry residency 
training programs, as well as in psychology.  Clinical psychology training 
programs.
    We have engaged in this initiative for the full 16 years, that we've been 
involved in this work.  We've been supported by the National Institute of 
Mental Health, in providing education and training, at the most advanced 
levels, for some 12 years, now.  And it's through these mechanisms, that we 
have actually conducted, I think, significant education and training, both in 
our own institutions, but as well, in a variety of different places across the 
country.
    It is solving a problem -- given that PTSD's really only widely recognized 
since 1980, it's been solving a problem for this country, that has taken some 
of our time.  How do you create and generate a whole cadre -- a whole cohort 
of people, who can take care of people who have been sexually assaulted? Or 
the other kinds of events that you've mentioned?
    It has not been easy to do this.  There are not experts at every medical 
school in the country.  There are not experts at every clinical psychology 
training program in the country, in these areas.  Yet, it's actually a vastly-
improved situation today, than it was when I entered the field 28 years ago.
    The Chairman. Dr. Friedman?
    Dr. Friedman. I appreciate your question, Mr. Chairman.  I think that 
you're right on target, that although PTSD treatment and research began in VA, 
I think that we have really been a major force in influencing the civilian 
sector in many, many different ways.
    In addition to our -- our graduates, and people who've benefitted from our 
programs, and people who come into VA, and gone on to influence the training 
programs in psychiatry, psychology, social work, and nursing throughout the 
United States, and certainly in the developed nations, as well, there has been 
recognition that sexual trauma, that disaster trauma, the recent tsunami, to 
be one of many examples, call for the kind of expertise that was first 
developed for treating veterans with PTSD.
    One of the things that the National Center, and the field in general, has 
done, has moved from the VA, as the spawning ground, and taken the same 
technologies, the same conceptual tools, the same clinical tools, and used 
them with women who've been sexually traumatized, with disaster victims. The 
National Center has had a five-year collaboration with SAMHSA, with the 
emergency disaster branch of SAMHSA.  And we were major players in the 
post-9/11 recovery.
    In terms of what's happened institutionally, within the field in general 
-- there have been independent efforts, with a lot of overlap and 
collaboration with VA practitioners, to develop evidence-based practice 
guidelines from other organizations.  The International Society for Traumatic 
Stress Studies, of which Dr. Keane and I are both past presidents, actually 
developed the first practice guideline for PTSD, which was published in 2000.
    Since then, there have been two other practice guidelines.  One was the 
American Psychiatric Association's practice guideline, which came out last 
year.  And the joint VA/DOD practice guideline, which I mentioned in my 
testimony. So, perhaps that's responsive to your question.
    The Chairman. With regard to the seamless transition, medical records.  
DOD to VA, VA back to DOD.  Are these occurring electronically, or is this 
paper?  What's happening, out there, right now?  Does anybody know?
    Dr. Keane. Most of the -- most of the -- the hand-offs are by paper, and 
by phone.  And it actually, at least, by my report, in my experience, it's 
actually working very well, in many, many, many instances.  So, we're very 
pleased about how this integration has occurred.  I think you were asking -- 
    The Chairman. What about the post-deployment health surveys?  Do you get 
those?  Is the VA getting those?
    Dr. Keane. No.
    The Chairman. Great.  You know, we put a lot of effort into this.  I wrote 
the law for a reason.  For you to do these as pre-deployments, and post- 
deployments, and then, to make sure they get to the VA.  So, if DOD doesn't 
care about them getting to the VA, are they getting there? Let me turn to DOD. 
Tell me what's happening.
    Dr. Engel. If I may.  There are a number of challenges in the data sharing 
area, not the least of which is -- are the HIPPA laws.
    The Chairman. No, no, no.  You can't pull HIPPA on me.  Uh-uh.
    Dr. Engel. Sir -- 
    The Chairman. No, you can't pull HIPPA, no, no, no, no.  You can't do 
that. We, Congress, say you can move that data.  So, go to the next comment.  
You can't pull HIPPA on us.
    Dr. Engel. Well, sir, I'm really not trying to pull -- 
    The Chairman. Right.  Well, I'm just saying, -- 
    Dr. Engel. I -- 
    The Chairman. Just erase HIPPA.
    Dr. Engel. I -- 
    The Chairman. Now, go to the next -- 
    Dr. Engel. -- the level at which I operate, these are challenges that we 
-- that we are -- that we -- 
    The Chairman. HIPPA's a challenge, but it's not a challenge with regard to 
the sharing of information, and how we get it from DOD to VA.  That's the only 
point I want to make. 
    Dr. Engel. Yes, sir.  I mean, I think we've made enormous strides in 
taking the post-deployment health assessment data.  It's all in a data 
repository, where it can be analyzed in near-real time.  And I think that we, 
as an organization, would welcome the opportunity to share that data with the 
VA, and do so rapidly.
    The Chairman. All right.  Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman.  Just for the record, I wish you were 
not so defensive about anything that comes from this side of the aisle.  But 
if I were you, I would walk Mrs. Pelkey over to the Secretary of Defense, and 
the Secretary of Veterans Affairs, and have her talk to them.  Maybe we can 
help her do that.
    What amazes me, gentlemen, when I hear people from various bureaucracies 
talking, doing their studies, and working hard -- it's almost as if you're 
working in a vacuum, outside the real world.  You all have just heard an 
incredibly emotional and moving testimony by Mrs. Pelkey.  I didn't hear one 
statement reacting to that.  I didn't hear any passion about "oh, we're going 
to correct that, and here's what we need."
    You read your statements, that you wrote earlier.  You make incredible 
claims, like Colonel Hoge said we have a distinctly pro-active approach. 
That's demonstrably false, at least in terms of the vast majority of our 
soldiers.  We don't have a pro-active approach, and I don't know how you can 
say that.  Everybody there is Pollyanna.  You haven't made one suggestion for 
change!
    I thought we would hear from you after listening to the testimony, "what 
do we have to do, and how much money do we need to do it?"  It seems to me, 
that that's what you ought to be reacting to, on a human scale, and not on 
your bureaucratic studies.  I have a Ph.D.  I understand research. But Colonel 
Hoge, you told us nothing meaningful.
    Mrs. Pelkey could have told you all that, just by sitting down with the 
interviewer and telling her experiences.  And a lot of spouses could have done 
the same thing.  I hope you're going more than a year out, but that's all you 
talked about.  And we know these symptoms occur later on.
    And even within the context of your own testimony, which was so 
Pollyannish, I don't understand how you can not sit there and be angry about
what we are doing as a nation to meet these needs.  I think Colonel Hoge, or 
as Colonel Engel said, your center had seen 1,500 post-Iraq servicemen.  
1,500, out of the tens of thousands?  You said in your own testimony, there's 
700,000 hits a month on your Web site.  And that means -- that's an incredible 
number of people interested in what we are doing.  And we're meeting only a 
few.
    Your one-in-four statement, after 12 months, I don't understand why you 
would stick to that, when we know these things first, come up after 12 months. 
And second, how difficult it is for people to admit this kind of situation, or 
to even get data on it, as we have heard so movingly in the testimony.  CPT 
Pelkey wouldn't have been in one of your statistics, and yet, there he was, 
very sick.  Very ill.
    I appreciate Dr. Friedman saying, the only suggestion I really heard from 
you, is that you don't have a mandate in the VA to deal with families, as 
opposed to the individual veterans.  That's an important statement, and we 
ought to remedy that.  And I appreciate you saying that.  But we could have 
heard 25 things, probably, from you all who are experts, to tell us what we 
had to do. And I didn't -- all I hear is, we're doing everything right.
    The statement that the Vet Center had gone up from a few thousand to 
14,000 in last year, that shows what you're trying to do, and the need.  I 
don't think there's been a great increase in the number of staff there, to 
serve this incredible increase.  You need to say, we went from 3,000 to 
14,000, and our staff had too few people to deal with that.
    That's what we have to know.  What do we have to do, to meet the needs?  
And all I hear is that everything is fine. Everything is not fine.  We have 
suicides, we have divorces, we have domestic violence, we have crime, we have 
homelessness.  Let's get passionate about these problems.
    The fact that a veteran is not being helped, and commits suicide, or is on 
the street, should get everybody angry, as an American citizen, about this 
issue.  We know how to treat these illnesses.  We know how to do it.  We've 
advanced that far.  And yet, we're not getting the services that veterans 
need.
    So, I'm very disappointed by all your testimony.  You are locked in these 
studies, and your journals.  Go out and talk to veterans and their families, 
and you'll get all the information you need.  I just want to know, how much 
money does it cost to do the kind of work that Mrs. Pelkey laid out?  We know 
we have to deal with the families.  We know we have to spread the information 
to all the service providers.  We know we have to have peer discussions.
    Just tell me how much that's going to cost, and let's do it.  Thank you, 
Mr. Chairman.
    Dr. Hoge. Sir, if I may -- 
    Mr. Burton. [Presiding]  Go ahead.  Respond.
    Dr. Hoge. -- respond to that.  I think that the - the critical -- if I 
understand your question, sir, the critical element is, given the research, 
which shows that there is a significant risk of mental health problems, 
particularly PTSD, are the resources sufficient to take care of our 
servicemembers coming back, and -- 
    Mr. Filner. That was a great translation of my emotion, into bureaucratic 
language.  I don't know why you have to talk that way.  Talk as a human being, 
and not, you know, "the study based on," and "we have to get the resources 
conditioned on" -- I mean, come on. These are people who are suffering.  I 
want to know how much money do we need, to make sure they stop suffering?  
That's all you have to do.
    Mr. Burton. Okay.  I think he understands this. Let him respond.
    Dr. Keane. I would just like to add, if I can, that there are 
approximately 10 very specific recommendations in my written testimony, that, 
I think, warrant consideration by the group.  And I'd be happy to elaborate on 
them, if given the opportunity.
    Mr. Burton. Since I'm sitting in for the Chairman, and he's not yet 
returned -- I'm interested in some of the comments from my colleague.  In the 
last couple of years, there've been, as the chief of staff was just pointing 
out here, that there have been about 100 people added to take care of the 
need.  Is that sufficient in the Vet Centers.
    Mr. Batres. We just got an additional 50.  The original 50 -- 
    Mr. Burton. Yes, I understand that.  He just told me that, too.  But if 
what my colleague has said is correct, there was 15,000 last year?  Is that 
what you said?  14,000? Are 100 new people in the last couple of years 
sufficient to deal with that problem?  And I'd also like for you to elaborate 
a little bit more on what he was asking about the families.  Is there a 
mechanism for these families, to get the kind of assistance that they need as 
well?
    You know, I know some people that were in Vietnam. And when they came 
back, there was a great deal of stress upon them, but also on their families, 
because the adjustment to these people was really substantial.  You know when 
they have a loved one that goes, that's a pretty warm, fuzzy guy, and when he 
comes back, he's a hardened veteran, who's seen some of the worst atrocities, 
and tragedies that you can imagine. And the family has to adjust.  Is there 
any provision, as well, for the family members?  And if not, should there be?
    Mr. Batres. A point of clarification.  And I don't think you were here 
when it was said.  My program -- 
    Mr. Burton. Well, I apologize for that.  Go ahead.
    Mr. Batres. -- does have eligibility for family members.  So, we see 
family members.  We see these significant others, and the children.  In our 
bereavement program, the whole aim is to treat the whole family, because DOD 
only treats one individual.  Usually, the significant other.  We've expanded 
our services to the entire family of operation.  And we've been doing that for 
awhile.
    The other thing is that you're exactly right.  We became very pro-active, 
early on, to get those 50 FTEE authorized, so we can begin to do the outreach 
mechanisms. Before this operation, we had no experience with the number of 
National Guard and Reserve folks that are being activated, and some of them 
doing their second and third tours, right now.
    So, in anticipation for that, we designated those folks, and we hired from 
within, the returning soldiers, to do the outreach.  And to provide access to 
care for the VA.  And they're bringing in a significant number.  I suspect 
that the next 50 will also be equally as effective, in doing that.  I think we 
need to assess, and see if 100 is enough.  And if it's not, I think we should 
get more, or I would certainly advocate for more resources, through my 
particular avenue.
    I do want to dispel the perception that we're not passionate.  I'm a 
disabled Vietnam combat veteran, and I take my job seriously, as I think most 
VA folks do.  And we are working very pro-actively, to do what we can for our 
fellow veterans, and I think that I would extend that to a good number of our 
folks in our program.
    The problem is, from my perspective, that, you know, figuring out what 
would be appropriate for the increasing numbers, when you don't know what 
they're going to be initially.  And then, as you go along, developing those, 
and then, quickly staff them.  I am -- I feel very fortunate to have the 
additional 100 FTEE, and I'll guarantee you, they're being put to very good 
use.
    Dr. Friedman. I'd like to comment, also, in response to some of the 
earlier statements.  It's a new ballgame.  I think that looking, and trying to 
project resources based on traditional accounts of people that come through 
the turnstiles, to VA clinics, or Vet Center clinics, is only a piece of it.
    As Mrs. Pelkey indicated, and as some of us indicated in our testimony, 
there are new initiative.  New kinds of things that we really are just 
beginning to get our heads around.  The collaboration between the VA and the 
DOD is unprecedented, in my experience.  It's very, very welcome. The fact 
that I'm doing a number of projects with these two gentlemen, as well as many 
other people in uniform, is something that hasn't happened until very, very 
recently.
    Much of the effort, I think, has to be about prevention, about education.  
As Dr. Keane said, using Web-based technologies.  We've developed -- and I 
gave four CD-ROM copies to the Committee -- in conjunction with Walter Reed 
Army Medical Center, the Iraq War clinician guide, which is a state-of-the art 
manual on how to treat these people.  It's available on the Web, it's 
available by CD-ROM.  Prevention. Outreach to families.
    Costing that out, I think, is something that we're really unfamiliar with.
    Mr. Burton. Well -- 
    Dr. Friedman. And I think we need to do it, because it's a major part of 
what has to be done.
    Mr. Burton. Well, we have a Vietnam veteran sitting there, next to you.  
And with the experience in Vietnam and Korea, and the other conflicts with 
which we've been involved, it strikes me as unusual that you're saying you 
don't have the experience to deal with some of these problems.  I mean, we've 
had war after war after war in our history.  And each one of those wars gave 
information to the various agencies on how to deal with these stressful 
problems that are created.
    And I mean, you know, they had horrible things in World War I and II, 
trench warfare, and Korea and Vietnam. And from what I'm gathering from you 
folks is that you're experiencing something new, because maybe the National 
Guard's involved.  They're still military personnel who are involved in 
combat.  It seems to me that the statistical data that you've had from 
previous conflicts could be a real benefit.
    I just don't understand why you seem, I don't know, somewhat bewildered, 
because this is something new.  I don't think it is anything new, is it?
    Dr. Friedman. May I clarify?
    Mr. Burton. Sure.  I'd like to know. 
    Dr. Friedman. I thought I covered some -- 
    Mr. Burton. You'd better turn your mike on.
    Dr. Friedman. I thought I covered some of that in my testimony.
    Mr. Burton. Well, I apologize.  I wasn't here. 
    Dr. Friedman. What's certainly new, are evidence-based treatments.  And as 
I said, we didn't have the kind of treatments 30 years ago for the Vietnam 
vets, that we have now.  And we're learned a great deal from Vietnam.
    What is new, is the immediacy and the collaboration with the DOD.  It was 
10, 15, 20 years after people returned from Vietnam, before VA had the 
capacity and offered the eligibility so that Vietnam veterans could come to 
VA.  What's new, now, is the fact that there are families out there, with 
returnees who've just come in a day or two ago.  That's new.
    It's new for VA, and it's an important opportunity. It's an opportunity 
that we welcome, so it's not about being bewildered.  It's about recognizing 
the problem, identifying it, and trying to be as pro-active as possible.
    Mr. Burton. Well, how long will it take before you know how many 
additional personnel you're going to need to deal with this large number of 
people who need attention and care?  I mean, I think you said 14,000?  Is 
that correct? 14,000?
    Dr. Friedman. I think it's very hard to make projections.  I'll defer to 
Dr. Hoge.  I mean, it's very early in the game.  The data we have on Vietnam 
veterans, we obtained in the mid-1980s.
    Mr. Burton. Okay, based upon the data you had back then, how long would it 
take to take care of 14,000 people and give them the attention they need?  And 
how much would you need additional personnel for that?
    Dr. Hoge. Sir, I think there's ample data available for us to project 
service utilization needs, and resource needs.  And I would like to take the 
question for the record, and get back to you on specifics of exactly what 
resources we would like to request, to best serve our service members.
    Mr. Burton. So, what you're saying is, from the experience you've had in 
the past, Colonel, that you could project the need fairly accurately.
    Dr. Hoge. Yes, sir.  I -- 
    Mr. Burton. Why hasn't that been done before now? I'm just curious. 
    Dr. Hoge. Well, I think that the combined data of what we -- 
    Mr. Burton. I mean, the war's been going on, there, for over two years.
    Dr. Hoge. Yeah.
    Mr. Burton. And we also had Desert Storm before that.  Why hasn't there 
been some statistical data, showing what the need would be before now?
    Dr. Hoge. Virtually every study that was conducted in prior wars, sir, 
were done literally years, sometimes decades after servicemembers came home.  
This is the first war where we're actually collecting data in real time, and 
calculating rates.  But we now have two years' worth of data. And I think 
that's sufficient to make reasonable -- you know, maybe not the most accurate, 
but I think reasonable projections -- 
    Mr. Burton. How long would it take for us to get that here on the 
Committee?  I know the Chairman and others would like to have that.
    Dr. Hoge. Well, I'm a researcher, and I -- and I will do the -- my very 
best, to go to my leadership, and get that answer for you, as quickly as 
possible, sir.
    Mr. Burton. You can't give us any timeframe? A month?  Two months?  Two 
weeks?
    Dr. Hoge. I don't see any reason why it can't be done in the next month, 
or so.  I mean, I'm -- I can't speak for my leadership, but it's -- it's 
something which we have been wrestling with.  What are the resource needs, for 
instance, with the upcoming post-deployment reassessment, that's going to be 
done at three to six months?
    Mr. Burton. Uh-huh.
    Dr. Hoge. That reassessment is going to generate a large number of 
soldiers coming in for care.  And there's a lot of serious questions being 
asked about what are the resources that are necessary to provide the services 
for those servicemembers that identified.  And my -- 
    Mr. Burton. Well, let me just say, because I know the Chairman's going to 
be back here in a minute, I would personally, as a member of the Committee and 
one who's been on and off this Committee for about 20 some years, like to have 
not only the statistical data on how many people you would need to take care 
of those who are coming back, but also, if you could project out how many 
people you would need, based upon past experience, to deal with some of the 
family members that are suffering from the results of the stress caused by the 
conflict on these soldiers.
    So, you don't have to be precise. I don't think anybody expects you to be 
precise. But we'd like to know what the need is.  Congress can't authorize or 
appropriate the resources necessary to take care of a problem, unless we've 
got some pretty good data.
    Dr. Hoge. Yeah.
    Mr. Burton. And if people are vague about that, you know, we go to the 
authorizing Committee, and they say, well, how much do you need, and why?  And 
if nobody has an answer, then they can't authorize.  And the appropriators are 
very difficult to deal with, if you can't give them some pretty clear-cut 
information.  So, if you could get that for us, you said you think maybe 
within a month, you could get it, that would be great.
    Dr. Hoge. I'll work with the leadership at the surgeon general's office, 
and DOD, to try to get those --  those more specific estimates of resource 
needs, to the Committee.
    Mr. Burton. So, for the record, do you think you can get that within a 
month, maybe?
    Dr. Hoge. I -- I shouldn't promise that -- 
    Mr. Burton. Will you try to get it within -- 
    Dr. Hoge. I will -- I will do the best I can, to nudge the system along, 
to -- do that.  Yes.
    Mr. Burton. Okay.  Thank you, Colonel, very much. I see the Chairman's 
back.  I'll turn the chair back over to him.
    The Chairman. [Presiding]  Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.  Thank you all, for your testimony 
here, today.  Many of the veterans that return, come from rural areas.  And I 
don't -- at least, from my own experience, in my Congressional district, in my 
state, it seems like they're disproportionately from rural areas.
    And I was wondering, the -- in terms of the services that each of you have 
talked about, and what's being provided now, do we have the capability to deal 
with veterans that are two, and three, and four hundred miles from the large 
hospitals -- are rural veterans treated differently, because they live so far 
from those facilities?  I mean, what is being done to deal with that kind of 
situation?
    And any of the members of the panel that can speak to that.
    Dr. Engel. Sir, if I may.  I would like to say that CPT Pelkey's terrible 
story is, for me, a sober reminder of the overwhelming charge that we have, to 
care for our own. At the Deployment Health Clinical Center, what we are doing 
with Respect Mil study, and as Dr. Friedman mentioned, we're collaborating 
with the National Center on this, and exploring ways to go broader, within 
DOD.
    This is a potential -- has the potential to maximize services for people 
who are in outlying places.  People who are otherwise, maybe falling through 
the cracks.  So, I think that again, the -- the opportunity to afford good 
mental health care, through primary care, is a way of reaching out to rural  
communities.  And if we can bolster continuity in primary care, people will 
not fall through the cracks, and we won't experience the sorts of terrible 
tragedies that we've heard about today.
    Mr. Udall. And do you think they're getting the training they need, out in 
these primary care facilities, to recognize PTSD, and -- 
    Dr. Engel. Sir, one of the -- in the Respect Mil effort, we have developed 
a primary care education module, for primary care docs, that speak to them at 
their level of understanding of post-traumatic stress disorder, and facilitate 
care, and improve the structure of primary care, by allowing them to use good 
screening tools, and tools that measure the severity of patients' illness.
    It's not just a knowledge issue.  There are also important structural 
changes that have to take place in the clinic, so that patients who struggle 
with these sorts of challenges, get the intensive time and attention that they 
need.
    I would also add too, that Uniformed Services University's department of 
psychiatry and its Center for the Study of Traumatic Stress is a leader in 
creating educational materials through its Courage to Care program for 
communities that are dealing with disaster or terrorism, and our PD.mil 
website has extensive information about the clinical practice guidelines for 
post-traumatic stress disorder, for depression and other mental health 
conditions.  We make specific efforts to design that site so that primary care 
clinicians can access them quickly.
    As a mental health practitioner who has worked in a rural area all of his 
professional life, I thank you for your question.  I think that the challenges 
of any health delivery, especially mental health delivery in rural areas are 
very unique and very important.
    I think that within VA there are a number of options.  Certainly the vet 
center program is one of them and Dr. Batres can describe that.  There are 
also community-based outreach clinics or outpatient clinics where VA 
practitioner and VA clinics are set up in places at a distance from the 
flagship hospital, so the transportation and road condition programs that 
often are barriers to access in rural areas can be overcome.
    There are also partnership with community mental health centers that have 
been done in certain areas.
    In addition -- this is kind of traditional stuff, but I think that given 
the information age, the internet, the tele-health capability, this is really 
-- and this is one of the things I have been wanting to address in some of my 
answers or my initial comments is this is a very good way to reach rural 
practitioners.
    The national center's website, which is getting 65,000 unique users a 
month, is one way that people can access the latest on treatments and 
download it no matter where they are.  We have even been able to do this 
with people providing help in the tsunami-stricken areas.
    We are working on a state-of-the-art curriculum.  We call it PTSD 101, 
which will be a web-based production.
    In partnership with the Uniformed Services University health sciences, we 
have proposed a very, very ambitious and extensive educational initiative, 
which will be using tele-health and web-based technologies as well as 
face-to-face to upgrade the skills of DOD and VA practitioners, so I think 
that there are many, many options that we have available, and we need to make 
good use of them.
    Mr. Udall. Any other comments from the panel?
    Dr. Batres. I just wanted to briefly say a few things.
    One of the ways we extend our services is our contract for a fees program 
within the Vet Center program where we contract with private providers in 
rural areas. Although limited, we have found that that particular program is 
very effective if we can find the providers with the skills and the training 
to provide the services.
    We have also established outreach centers that are what we call " 
outstations."
    For example, we have five vet centers on Native American land.  These are 
very rural areas, places like Hopi and Navajo and other reservations we have 
gone out and established an outstation in the particular reservation to 
provide services closer to their communities.
    For example, if you were a Hopi or Navajo, as you well know, you have to 
drive a long way to get to Phoenix or to Albuquerque.  So we promote services 
and are local and attempt to do that.
    The other thing that we are doing, especially with the National Guard and 
Reserve, is working very closely with General Blum and the National Guard 
registry as well as the reservists.  We are establishing, and I think the 
National Guard will be rolling out a plan that is state-based where we are 
creating coalitions of all community resources and coordinating the services, 
and I think that will help to improve our services to rural areas, but I want 
to also say what Matt said, and that is that is a challenge, when veterans are 
dispersed all over a great geographical area and getting the appropriate 
services to them.
    Those are some of the things that we have enacted.
    Mr. Burton. [Presiding]  Mrs. Napolitano -- 
    Mr. Udall. Thank you.
    Mrs. Napolitano. Has he finished?
    Mr. Burton. Are you finished?  Do you have a follow-up question?
    Mr. Udall. No, I didn't have a follow-up.  My time was out, but I noticed 
Dr. Keane wanted -- 
    Mr. Burton. Oh, sure.  Proceed.  Sure, that's fine.  Thank you.
    Dr. Keane. I just want to concur that these are complicated matters when 
you have a centralized system, but the CBOCs, the community-based outpatient 
clinics, is one important answer, as are the many programs that Dr. Batres has 
put into place.
    The issue with CBOCs, however, is the extent to which there is specialized 
care, and among the concerns that many of us have is that primary care doctors 
are already extraordinarily busy and very hard-working, and to take on the 
burden of both diagnosing and treating combat related problems becomes a 
burden that may just be too much for them to bear.
    The question of course is at what point can we have and how can we have 
mental health services in these clinics, and this is being actively debated 
and discussed and in many places implemented, but I think we could likely do 
more there.
    Mr. Udall. Thank you very much.
    Mr. Burton. If I might follow up before we yield to Mrs. Napolitano, could 
not be included in the information that I requested earlier some kind of 
analysis on how much revenue would have to be requested from the government to 
take care of the need for these people in the rural areas who need psychiatric 
help.  If you could give us that.  As I said before, I think one of the 
problems with this Committee and every Committee in Congress -- I was 
Chairman of the Government Reform Committee for six years -- is that we don't 
get enough information from the various bureaucracies to be able to ascertain 
how much money we need to spend and how many people are going to be needed to 
do the job, so if you could try to get that along with Colonel Hoge?
    Dr. Hoge. Yes, sir.
    Mr. Burton. We would really appreciate it.  I mean he has already said he 
could get all this done in about two weeks -- or did you say four weeks?
    [Laughter.]

    Dr. Hoge. Sir, I said I would go to my leadership and pass on your request 
for -- 
    Mr. Burton. Well, we'll call your leadership and tell them you made a hard 
commitment for a week, how's that? As quickly as you can get it done.  I'm 
sorry.  Does that answer your question?
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair, and I have listened with great 
interest because PTSD has been something that I have been very interested in, 
very involved in since my days in state assembly in California.
    Some of the questions -- one of the answers that Dr. Batres gave in regard 
to the treatment, I believe you said it was bereavement only.  What happens 
with treatment to the families or assistance to the families and those that 
have not lost a member?  Because that is important.  It isn't just those that 
have lost a loved one, but it is a family whose member has gone through these 
atrocities, who has been injured -- not necessarily dead -- and cannot deal 
with because they don't know how.
    So does that include also services to the families?
    Dr. Batres. We would cover that.  Any problem that is related to their 
military service we would cover, so it is not limited to just bereavement.
    Mrs. Napolitano. So the resources needs would be for the service 
individual and the family?
    Dr. Batres. Correct.
    Mrs. Napolitano. Is the family aware of the services?  Is it something 
that is given to them, talked about, sent to/mailed to them, emailed?  How do 
you get that information to them?
    Dr. Batres. We get the information out through the typical formats.  It is 
on our website.  We inform folks.  We do our debriefings at the demob sites 
and wherever we interact with the military we pass out that information to 
them, that they are eligible.
    And they have been eligible for 25 years.  It's not a new eligibility.  We 
have always included the families as part of our treatment.
    Mrs. Napolitano. Okay, but that still does not --  many families don't 
have access to computers so they can't access the website.  Is it possible 
then that you might include in writing when the VA sends information to a 
veteran to remind them that these services are available, that their families 
might seek help in instances where there is an issue of PTSD that may not 
recognize it's PTSD.
    I am trying to figure out a way to be able to get information to the 
family itself as to how they can help it. They may not recognize it.  They may 
not know what PTSD is.
    Also you indicated that you have a website.  Can you share the website so 
members of Congress -- I'd love to have on my website the ability to link some 
of my veterans' organizations and say "Go" because  I am being asked now what 
do we send these -- you know, we are starting to get these youngsters coming 
in, asking for help at the local VFW and American Legion.
    How do we tell them here is a place for you to go or refer them to?  I'm 
sure somebody at the VFW has an access to a computer, but assistance to them 
at that level, because you can't do it all, but how do we know what you are 
doing and how we can lend a hand in that?
    Dr. Friedman. Our web address is in my testimony. The National Center has 
sent its annual report to this Committee every year.  We have a section 
devoted to the web, with the web address, telling you all the bells and 
whistles and stuff.  If you would like more information, I would be delighted 
to tell you about our website.
    Mrs. Napolitano. I'm sorry.  I don't have your testimony.  Maybe I missed 
it, because I am not a member of the Committee.  I did happen to pick up stuff 
from outside, but I will look for it.
    Any other website that you gentlemen might have?
    Dr. Engel. If I may, our website is pdhealth.mil -- m-i-l -- and the other 
comment I would make, ma'am, is that if you have a constituent friend or 
otherwise that needs assistance I would be glad to bring the full resources of 
my center to assist.  We are taking care of patients directly at my center.  
Certainly the numbers that we take care of are nowhere near the total number 
of people who are injured, but we come face to face with these folks every day 
and we are trying to develop innovative programs, and I assure you if you 
refer anyone to me and my center, we will take good care of them.
    Mrs. Napolitano. Thank you for the offer.  I will take you up on it if I 
need and my staff needs it.  But Mr. Chair, may I ask that you include in your 
request for information from Colonel Hoge how best to get information out to 
families on PTSD.  That might take some doing, whether it is advertisement --
we have done it for the recruitment of personnel for the armed forces.  Why 
cannot we start making some kind of inroads in indicating that there is help 
for those individuals who may be -- and their families for that matter -- who 
may need help, services that you can provide.
    Again, this will take money and this is something that maybe this 
Committee might be interested in working with you.
    Going to primary care, primary care is TRICARE, I am assuming?
    Dr. Engel. Ma'am, primary care is a treatment setting before specialty 
care.  There is primary care within TRICARE.  There is primary care within the 
VA and there is primary care within the Department of Defense.
    Mrs. Napolitano. My concern has been because in my area I had one clinic 
for my veterans, and I have a high percentage of veterans in my area, they 
were going to close it down.  This was about six years ago.  We have had a new 
clinic open, but it is outsourced.  I am being told by the physicians that 
they cannot give certain services because they are not reimbursed for them.
    That creates a problem for me, because if veterans are going in, 
indicating that they have PTSD and they are required to -- how would I say --
prove that it happened during a wartime, whether it was Vietnam, whether it 
was a prior war, and these individuals are having problems.  I am just telling 
you what problems I face in my area, so I am concerned about how can we get 
veterans who might not be identified as possible PTSD, that they can then go 
to an individual, whether it is a private servicer or VA, and say to them we 
need some mental health services.
    I'm sorry, but this macho thing prevents a lot of my veterans from 
admitting that they do have a problem. Unfortunately, we just need to be able 
to de-stigmatize so that it is something that they know they can be treated 
for and get help for.  Question?
    Dr. Friedman. The primary care initiative is really an important one from 
a number of perspectives.  I think that in the case of Mrs. Pelkey's husband, 
where he did see a primary care practitioner, that was a missed opportunity. 
I think that just to take that particular example, not knowing any of the 
other details, one of the goals -- and Dr. Engel has been in front on that -- 
Dr. Gerald Cross, head of VA's primary care has been very, very supportive in 
this regard -- is to acknowledge that because of stigma, other issues, and 
associated medical problems, veterans or Guardsmen, et cetera, with PTSD 
aren't recognized by primary care practitioners.  This, unfortunately, is 
often the case.  This needs to change since the first clinical port of call 
will often be the primary care clinic.
    That is the reason why we are so committed to trying to develop integrated 
primary behavioral health models of care which have been shown to be 
successful with depression.
    A project that we are doing in collaboration with Dr. Engel at Fort Bragg 
is testing this model.  Dr. Cross has been very enthusiastic in supportive 
about this.  Indeed, every veteran who comes to a primary care clinic will 
receive a PTSD screen annually so that -- 
    Mrs. Napolitano. Sir, I'm sorry, but what if they don't go to the primary 
care on PTSD?  What if they just go for an issue?  Can that primary care 
provider be able to identify that there is an issue with mental health?
    Dr. Friedman. That is the point of the screening. That is exactly the 
point of the screening.
    Mrs. Napolitano. But are they trained?  That's my point.  Are they given 
that?
    Dr. Friedman. That is an initiative that is underway.
    Mrs. Napolitano. That is why we are asking for the funding to be able to 
additional trained personnel so that we can then say we have enough people to 
address what we perceive is a growing issue.
    Dr. Engel. Ma'am, as part of this program that Dr. Friedman is speaking to 
that we are piloting at Fort Bragg, there is an education package for the 
primary care doctor, and there is a sort of clinic design that is put in 
place.  It is called the prepared practice for recognizing people.  The 
dissemination of that is something that we look forward to the opportunity to 
do.
    Mrs. Napolitano. So it's still in progress.  One more follow-up, just very 
quickly -- 
    The Chairman. [Presiding]  I have been very patient.
    Mrs. Napolitano. Thank you so much.  Very quickly -- go ahead, never mind. 
Just go on.
    The Chairman. Go ahead.  Make it quick.
    Mrs. Napolitano. It's gone -- went in one ear and out the other.
    The Chairman. Thank you.  We have votes coming up and we have another 
panel.  That was the only reason, ma'am, that -- 
    Mrs. Napolitano. Thank you.
    The Chairman. The last thing, Dr. Hoge, we really haven't talked about 
your study, and you put a lot of time into this.  Mr. Burton asked a question 
about data and getting that information to the Committee.  In order for that 
to ever occur, how predictive are the results of your study?
    Dr. Hoge. I think the results of our study are predictive, and we have 
additional analysis that we have conducted, such as looking at how many 
servicemembers who have come back from OIF have accessed services, what 
percent have seen mental health, what are the reasons that they have accessed 
services.  So we know, I think we can predict with some degree of accuracy 
what percentage of our servicemembers are in need of services, mental health 
services, and then obviously the second question to that is are the resources 
adequate.
    That is something I just can't comment directly on in my position -- 
    The Chairman. Is the data being shared with the VA?
    Dr. Hoge. Excuse me?
    The Chairman. Is it being shared with the VA?
    Dr. Hoge. Yes, sir.  Yes, sir.  All of our data, and that is one of our 
primary missions is to get the information out in a timely manner so that it 
can influence policy directly.
    The Chairman. Well, we recognize that the President in his budget 
increased $100 million in the VA for mental health.
    Dr. Friedman, I want to thank you for the team you sent to Newark city 
immediately after September 11th on behalf of the country.  Your response to 
that and help is noted.
    I would like to thank this panel.  You have invested a great deal of your 
life into these studies and being able to help our soldiers and the families.
    We know we have got them in the military but we don't pause and say why?  
You know, we train them to kill and break things, when you think about it, and 
there are some mental consequences from warriors doing such things, and we 
train them to be rough and tough, but they are also someone's cuddly son, 
right?  Cuddly spouse?  And they do have a warm, compassionate side to that 
warrior spirit, and when that veil gets pierced there are real consequences, 
and that is where you as professionals step in.
    At some point in time though, through PTSD and a diagnosis, through 
treatment, they can get better, can they not?
    Dr. Hoge. Yes, sir.
    The Chairman. It is a curious matter with regard to the escalation of 100 
percent PTSD disabilities and how people get worse, and all of a sudden when 
they get a 100 percent disability rating, then they get better.  So I think 
what we are going to have to do is when we come back we may have to do a 
secondary hearing with regard to the IG report, because it is pretty alarming 
with what is happening out there.  We want to make sure that the precious 
resources we have, that the care and attention go to individuals that need it 
and not to individuals who are perhaps using some form of excuse for bad 
behavior.
    It is a delicate matter and a delicate issue but it's one we have to 
confront, and I know that you were able to sit here and listen to the 
testimony from the first panel witness and I am glad you were here and could 
hear that.
    There are reasons we call certain circumstances a tragedy, and we label 
them a tragedy because when you go back and you do an analysis of it, there 
are failures all around.  This member of the army family didn't get the 
support that he needed, and every port of entry for access or referral wasn't 
there.  I mean that is why we call it a tragedy, and so I imagine that perhaps 
there are some other cases out there, but I appreciate your leading forward, 
and this panel is now excused.
    The third panel will please come forward.
    Michael E. Kilpatrick, M.D., is deputy director of the Deployment Health 
Support, office of the Deputy Assistant Secretary of Defense (Force Health 
Protection and Readiness). Dr. Kilpatrick is responsible for providing 
assistance to Gulf War veterans and facilitating the operational support for 
Force Health Protection initiatives and the coordination of health-related 
deployment issues between the Office of Assistant Secretary of Defense for 
Health Affairs and the military departments.
    We will also hear from Brigadier General Michael J. Kussman, M.D., MACP, 
who is U.S. Army, Retired.  He was appointed Deputy Under Secretary for Health 
for the Veterans Health Administration, of the Department of Veterans Affairs 
on May 29, 2005, and in this capacity he leads the clinical policy and 
programs for the nation's largest integrated health system.
    If both of you would introduce who you have accompanying you, and then I 
would then yield to Dr. Kilpatrick.
    Dr. Kilpatrick. Mr. Chairman, I have Dr. Jack Smith with me.  He is head 
of the Clinical and Program Policy in Health Affairs for DOD.
    The Chairman. Very good.  Thank you.  You are now recognized.  If you have 
a written statement, both of you gentlemen?  You do?
    I ask unanimous consent that it be submitted for the record.  Hearing no 
objection, it shall be entered.  Dr. Kilpatrick, you are now recognized.



STATEMENTS OF DR. MICHAEL E. KILPATRICK, DEPUTY DI-
    RECTOR, DEPLOYMENT HEALTH SUPPORT DIRECTORATE, 
    OFFICE OF THE DEPUTY ASSISTANT Secretary OF DE-
    FENSE, Department of Defense; ACCOMPANIED BY 
    DR. JACK W. SMITH, DIRECTOR OF CLINICAL AND PRO-
    GRAM POLICY INTEGRATION, OFFICE OF THE ASSISTANT
    Secretary OF DEFENSE FOR HEALTH AFFAIRS, Depart-
    ment of Defense; DR. MICHAEL J. KUSSMAN, DEPUTY
    UNDER Secretary FOR HEALTH, VETERANS' HEALTH
    ADMINISTRATION, DEPARTMENT OF VETERANS' AFFAIRS;
    JOHN E. BARILICH, OPERATIONS OFFICER FOR VISN 110,
    DEPARTMENT OF VETERANS' AFFAIRS; AND DR. MARK
    SHELHORSE, DEPUTY CHIEF PATIENT CARE SERVICES 
    OFFICER FOR MENTAL HEALTH AND CHIEF MEDICAL 
    OFFICER FOR VISN 6, DEPARTMENT OF VETERANS' 
    AFFAIRS

STATEMENT OF DR. MICHAEL E. KILPATRICK

    Dr. Kilpatrick. Mr. Chairman, distinguished members of the Committee, 
thank you for the opportunity to appear before you today and discuss the 
Department of Defense's efforts to prevent, identify and treat post-traumatic 
stress disorder.
    I would like to provide some brief opening comments.
    I would first like to start by thanking Ms. Pelkey for her courageous 
testimony today.  I would like to also express my sincere condolences to her 
for her loss.
    I am going to be talking about policies and health in the Department of 
Defense and then the ultimate evaluation policies that must be evaluated and 
how well they serve and support our men and women in uniform who serve.  When 
that doesn't happen, then we need to take a look at is there an issue with the 
policy, is there an issue with the implementation, and I think that those are 
areas where we must continue to learn as an organization and as a society.
    The Department of Defense is firmly committed to safeguarding the health 
and fitness of our active and reserve component servicemembers both before, 
during and after deployments, and this includes emotional health.
    The department's ongoing education programs for military health providers 
focus on prevention programs and early intervention for behavior and health 
issues.  You have heard about those education programs.  They're still early. 
We need to have similar education programs for our military leadership, the 
operational leadership, so that they can support their soldiers, sailors, 
airmen, Marines getting help early when they need it.
    We need to make sure that that education program reaches out to touch the 
families so they are part of this issue on bringing to bear early intervention 
and then finally our servicemembers must understand that they have a safe 
haven to come to seek that health care.
    I believe we have made great progress in the areas of prevention, 
identification and care for stress-related health risks such as anxiety, 
depression, and acute stress reaction and we are really focusing now on post-
traumatic stress disorder.  These conditions are part of a continuum of mental 
health issues that are caused by operational stressors and combat trauma.
    The Department of Defense is making a sincere effort to screen our people 
for mental health problems annually as part of their preventive health 
assessment.  Servicemembers attend briefings about the psychological 
challenges of deployment during pre and post deployment processing, often 
with family members.  They learn what to expect on homecoming and how to 
reduce anxiety and family tensions.  They also learn to recognize when and 
how to seek professional help.
    From the beginning of the current Operation Iraqi Freedom deployment we 
employed medical and environmental surveillance to monitor possible health 
risks.  We deployed combat stress teams to provide education and address 
specific member concerns.  At the request of the OIF leadership, the Army 
sent a 12p-person mental health advisory team to Iraq and Kuwait.  This was 
the first time we have ever assessed behavioral health care in the field.
    Based on the advisory team's recommendations we deployed additional combat 
stress teams for the OIF deployed force.  In additional to the medical 
support, members of the chaplaincy provide counseling before departure, in 
the theater, and after troops return.
    Upon their return, servicemembers receive a post-deployment health 
assessment, with a face to face discussion with the primary care health 
provider.  The assessment includes specific questions about behavioral health 
issues associated with deployments.  If the individual's responses indicate a 
risk of behavioral health issues, he or she is referred for medical 
consultation if PTSD or other behavioral health issues can be identified.
    Of the 138,000 troops who returned in calendar year 2004 and received a 
post-deployment health assessment, 16 percent were subsequently seen by mental 
health providers for evaluation.
    We are now implementing the new post-deployment health reassessment 
program to identify and recommend treatment for deployment-related health 
concerns that may arise three to six months after deployment.  We are reaching 
out to veterans three to six months after they have returned to provide a 
proactive wellness check to see how they are doing, especially those 
servicemembers transitioning from active duty to inactive or civilian status.
    The reassessment begins with a questionnaire that includes questions 
designed to highlight possible stress-related issues.  Importantly, the 
questionnaire is followed by a one on one consultation with a primary health 
provider.  Again the professional administering the reassessment will refer 
individuals to follow up evaluation when it is indicated.
    This program certainly requires that education of the primary health care 
providers so they understand the program, making sure leadership understands 
this.
    Dr. Winkenwerder yesterday testified that the Department of Defense has 
committed $100 million to do this program this year and next fiscal year for 
the servicemembers who will be in that three to six month window.  After 
servicemembers return from deployments, military and VA providers provide a 
jointly-developed post-traumatic stress clinical practice guideline and a 
post-deployment health clinical practice guideline to provide focused health 
care on post-deployment health problems and concerns.  There are really 
algorithms for the care providers to follow to make sure that those issues are 
appropriately addressed.
    Military members and their families can also proactively seek health care 
through Military OneSource, a 24-hour, seven-day a week toll-free family 
support service accessible by telephone, internet and email.  Military 
OneSource offers information and educational services, referrals and face to 
face counseling for individuals and families.  This confidential service is 
especially helpful for those who are not sure if their symptoms merit medical 
attention.  Their going to Military OneSource does not get reported to the 
military leadership.  If needed, counselors can refer the individuals for 
suitable care.
    OneSource is provided in addition to local installation family support 
services.  The National Guard Bureau has recently signed a memorandum of 
understanding with the Department of Veterans' Affairs to promote a seamless 
transition from DOD to VA.  The DOD provides timely data regarding a 
demobilization of National Guard troops so the VA can provide those 
individuals with information regarding available care and support.  This 
includes the use of Vet Centers which provide professional readjustment 
counseling and are a link between the veteran and the VA.
    The department recognizes that stress-related health risks are ongoing 
threats to our servicemembers and that we must continue to improve our efforts 
to safeguard their emotional and behavioral health.  Our education programs 
for military and family members and leaders and health care providers have 
been well received.  Our early intervention programs, combat stress teams and 
health assessments have proven to be effective.  All of this has been done in 
partnership with the VA, bringing us closer to our ultimate goal of a seamless 
transition from DOD to VA care.
    Mr. Chairman, I thank you again for inviting me here today.  I am pleased 
to answer your questions.
    [The statement of Dr. Kilpatrick appears on p. 124]

    The Chairman. Dr. Kussman.

STATEMENT OF DR. MICHAEL J. KUSSMAN

    Dr. Kussman. Thank you, Mr. Chairman.  Let me introduce, on my immediate 
left is Mr. Barilich and then Dr. Shelhorse to his left.  Both of these 
gentlemen have been critically important to us and have been heroes in 
developing our mental health strategic plan and the implementation of our 
mental health processes, and I am very proud to have them with me today.
    Before I get to my remarks, I'll make a few comments.  I also had the 
opportunity to stop and talk to Mrs. Pelkey, and obviously told her how much I 
appreciated her courage and dedication and conviction and told her how sorry I 
was for her loss.  I mean clearly it is a case where, as you articulated, that 
we should learn from, both DOD and the VA.
    Sir, just one other thing.  I have been in this position since 29 May but 
as you know I was acting in this position for over a year, so I would like to 
say I am no longer acting but I am still pretending.
    [Laughter.]

    Dr. Kussman. Mr. Chairman and members of the subCommittee, I appreciate 
the opportunity to be here today. Nearly every servicemember who actively 
participates in combat comes away with some degree of emotional distress. 
Some have short-term reactions but thankfully the majority do not suffer 
long-term consequences from that experience and we have heard that from the 
previous panel.
    Current efforts at early identification of emotional stress by DOD and VA 
clinicians increases the possibility of lowering the incidence of long-term 
mental health problems through a concerted effort at early detection and care. 
With DOD's help, the VA regularly compiles a roster of servicemembers who have 
separated after active duty in the Iraq and Afghanistan theaters.
    VA medical centers have treated over 100,000 of the close to 400,000 
OIF/OEF veterans who have separated from active service.  Two of the most 
common diagnoses of health problems that have been cited so far are 
musculoskeletal ailments and dental problems.  However, as was mentioned, we 
have a drop-down menu, so that when the person comes for whatever the issue 
is, a menu drops down and stimulates the primary care provider to do a mental 
health assessment to include PTSD.
    So of the people we have seen, the over 100,000, 24,000 have been 
diagnosed with potential mental health disorders including adjustment 
reaction, substance abuse, psychoses, as well as PTSD.
    Over 14,000 of this group, OEF/OIF veterans, have sought VA care at both 
Vet Centers and VA medical centers for issues associated to their adjustment 
reactions, such as PTSD.
    VA's approach to treating these servicemen and women is guided by an 
emphasis on the principles of health promotion and preventive care and is 
compliance with the President's New Freedom Commission on Mental Health.  We 
focus on providing the patient and the patient's family education about good 
health practices and behaviors.  We believe that education and 
destigmatization will go a long way in helping people get care and benefit 
from that.
    VA is engaged in a number of activities to inform veterans and their 
families of the benefits and services available to them.  In collaboration 
with DOD we have emphasis on outreach to returning members of the Reserve and 
National Guard, and this is of special concern to us, and has expanded 
significantly.
    In Fiscal Year 2003, VA briefings reached nearly 47,000 Reserve and Guard 
members.  So far this year, we have briefed more than 68,000 Reserve and Guard 
members.  In addition, both departments have developed a brochure together, 
which is entitled, "A Summary of VA Benefits for National Guard and Reserve 
Personnel." The VA has distributed over a million copies of this brochure.
    In the interests of time, I was going to comment on the Vet Centers and 
the Global War on Terrorism counselors that we have hired, and there were 50 
for the first year.  We have increased now to hire another 50, and Dr. Batres 
commented on that, so I won't reiterate his comments.
    OIF/OEF returning servicemembers seek out and enter the VA care from a 
variety of sources, including referral from military treatment facilities, 
Transition Assistant Program briefings, Vet Centers, and home town community 
service providers.  When OEF/OIF veterans present to VA clinicians with 
mental, emotional, or behavioral complaints, they are assessed both for the 
symptoms, functional problems and total clinical needs.  Treatment plans may 
include referral to mental health and Vet Centers for specific treatment of 
mental health issues.
    So, as was discussed by the previous panel, there is a tiered approach 
that people can get to us through our 157 facilities, our 206 Vet Centers, as 
well as our 850 CVOCs that are distributed all around the country.
    The goal of the VA's public health approach is to decrease the incidence 
of serious mental disorders.  There is evidence from VA's initial activities 
in the field that these approaches are accepted both by clinicians and the 
veterans they serve.  They may well decrease the incidence of chronic mental 
disorder for veterans.  For those who do develop mental disorders, decreasing 
the stigma or receiving care by teaching the public about the effect and 
efficacy of evidence-based treatment can increase the beneficial use of these 
services whose goal is the restoration and preservation of optimal social and 
occupational functioning.
    In conclusion, the VA will continue to monitor and address the mental 
health needs of OIF/OEF servicemembers.  We are prepared to provide 
state-of-the-art evidence-based care to all those who come to see us.
    Now Mr. Chairman, that concludes my statement and I would be happy to 
answer any questions you have
    [The statement of Dr. Kussman appears on p. 131]

    The Chairman. I would like for you to explain a little bit more about this 
24,000 of 100,000.  You've got to break that number down.  That is like saying 
one in four. Something just doesn't fit right, feel right.  Come on.  We have 
all worn the uniform here.  We know what it is like to go over there.  We know 
what it is like to come home.  We know what the mental adjustments are.
    It is hard for me to look at my soldiers and say one in four have what?
    Dr. Kussman. Oh -- let me try to answer a little more thoroughly than I 
did.  As I hope I was getting across, and the message that we are all saying, 
is that almost everybody who serves has some kind of readjustment or 
reintegration problem.  Most of the time it's not illness.  It is normal 
reactions to abnormal conditions, and to label this as "mental illness" would 
be inappropriate -- 
    The Chairman. Thank you.
    Dr. Kussman. -- clinically and would be inappropriate for the 
servicemembers and their family.  It's just not a true statement.  But of that 
100,000 who came, 24,000 had a diagnosis that would be consistent with 
adjustment reaction beyond what I just described to you.
    The Chairman. Take the next step.  Of the 24,000, then what happens?
    Dr. Kussman. Of those 24,000 there's 14,000 of them that have actually 
got a diagnosis of a mental health thing and there's a gamut of that 
diagnosis.  Some are adjustment reactions, of which PTSD is one of the 
adjustment reactions.  There can be substance abuse, pure psychoses, acute 
stress reactions, and they fall into that 14,000 who actually do get a 
diagnosis under the ICD code.
    The Chairman. You have to break this down a lot farther for me.  I don't 
want there to be any confusion.
    Of that 14,000 then, however you're coding that, break them out into all 
the categories, because if you are including alcoholism, drug abuse, 
narcolepsy, sleep disorders -- just go down the list.  What are we talking 
about?
    Dr. Kussman. Sir, Dr. Shelhorse will get that list.  It's by percentage.  
I believe that -- and he will get that out of the lists for you.  Just a 
second.
    Sir, what I have is the actual, most updated, and the number is 15,000 
versus 14,000.  I wasn't trying to be disingenuous.  What I put into the 
statement came before the latest number.
    Of the numbers of patients who have -- and you can have more than one -- 
and it is entitled, "The Frequency of Possible Mental Disorders among Iraqi 
and Afghanistan Veterans," adjustment reactions, which is ICD code 309.  I 
would be happy to give this to you for the record.
    There were 15,000 of them, who had a potential adjustment reaction, of 
which -- and this is administrative data, as you know, sir, and so you would 
have to go back and look at the charts to determine whether they really end 
up having PTSD or not, or what kind of adjustment reaction because you could 
put down as a primary care internist, if somebody came to me and I was 
evaluating for whatever their physical thing was as well as their full 
evaluation, I might put down "Rule out PTSD" or "Rule out adjustment reaction" 
and that gets coded and gets picked up on these numbers.
    But then you would have to go back and look at the chart and see whether 
"rule out" actually turned out to have PTSD, as may have referred them to a 
mental health provider to actually make that diagnosis.
    But in the administrative data, about 15,000 people have the adjustment 
reaction, but under the 24,000 -- the total people who have come that might 
have mental illness --  under that are nondependent drug abuse -- there's 
10,000 people who could have had an adjustment reaction and drug abuse.  
Depressive disorders are 8,000.  Affective disorders, 7,000.  Affective 
Psychoses, 4,000.  Alcohol dependency syndrome, 1,000.  Sexual deviation 
disorder -- sounds awful --  1,200.  Special symptoms that are classified -- 
I'll leave it to Dr. Shelhorse to describe that -- about1,100.  Acute reaction 
to stress, 945.  And drug dependency, 740.
    The Chairman. Thank you for the breakout.  Ma'am?
    Mrs. Napolitano. Thank you, Mr. Chair.  Quickly, what was the 100,000 
basis?  Is that actually identified?  Out of how many?
    Dr. Kussman. We categorize people who come that were OIF/OEF veterans.  
There were 100,000 people who have come to us so far that had served in the 
two theaters.
    Mrs. Napolitano. Self referred?
    Dr. Kussman. Well, there is a mix of those.  Some of them are transfers of 
care that are, as you may or may not know -- the Chairman knows this very well 
-- that we have a lot of seriously injured people that are case managed with 
the DOD, particularly at Bethesda Walter Reed, Brook, Eisenhower, and we have 
also branched out into Fort Hood and Fort Carson and some Navy basis, Marines 
as well, where we case manage those cases, so they are in that 100,000 as 
well.
    Most of them -- that is a relatively small number --  most of them have 
come to us for whatever they want, because they are veterans and they have a 
DD-214.
    Mrs. Napolitano. But have you done any outreach to those veterans from the 
Afghanistan war?
    Dr. Kussman. Oh, yes, ma'am.  The outreach is a very critical thing for 
us, both in mental health and whatever the disease may be, because, as we have 
heard from the previous panel, you can have all the infrastructure you want, 
but if people don't avail themselves of it or know it's there, it is not very 
productive, and this is particularly challenging in mental health issues 
because of society's stigma, and we are not immune to that and people are 
reluctant to go.
    What we have tried to do is be sure through briefings, the BDD process, 
the TAP, and all these different things, be sure that the separating 
individual, whether they go back to being a Reserve or a National Guard 
person, or they just get out of the active duty and no longer serve, have as 
much information as possible, understand what the websites are, the 800 
numbers.
    As we all know, people remember and keep track of a very small percentage 
of what you tell them in briefings, especially when you have come back from a 
place like Iraq and Afghanistan, and they want to get home.  Indeed, as we 
have learned, it is not required for the National Guard or Reserve to actually 
go through the process, so a lot of them actually leave their demobilization 
site, whatever, without ever getting the thing.  So what we have tried to do 
is be sure that we have videotapes.
    We have partnered with the National Guard and Reserve, the states, to go 
their sites, where they get back together, to have our VBA and VHA counselors 
go under our seamless transition office chaired by Colonel (Retired) John 
Brown and Major General (Retired) Matthewson-Chapman who work for him. She has 
been a leader and a point person on the National Guard and Reserve.
    But one of the things that we have done is these pocket cards.  You know, 
people lose everything that we give them, but we are hoping that --  people 
don't usually lose their wallets, so we could give them a pocket card that 
they could stick in.  If it is six months later or a year later, when they are 
having problems or their spouse is having problems, somebody might remember.
    Do you remember that pocket care we gave you?
    Mrs. Napolitano. I don't want to stop you -- 
    Dr. Kussman. I'm sorry?
    Mrs. Napolitano. -- but at my age I am losing it before I can get to the 
next question, which has to do with exactly what you are talking about.
    In regard to the National Guard, because they are National Guard, and just 
recently I think we were considering a measure whereby they would only be 
given three months of TRICARE services.  If they are not identified at the 
time they are mustered out or had not sought help for mental health treatment, 
does that preclude them from getting treatment at a VA hospital or any other 
institution that will help them? There's no record of it.
    Dr. Kussman. Let me say that we are potentially mixing two things.  I mean 
they get their TRICARE benefit as having served on active duty, and the 
Department of Defense has extended that to be sure there was more time for 
them and their families to get care, but there is a two year window after you 
leave, if you have served in combat, to come to the VA for anything that came 
up during that period of time when you served, and with no co-pays.
    You are categorized as a Category 6 person, so it doesn't make any 
difference what your income is or anything like that, and you have that two 
year window.
    After that they have a DD-214, and they are veterans, so they can come to 
us any time that they have for whatever they may need.
    Mrs. Napolitano. But it wasn't identified prior to their being released 
and being mustered out of service or they'd been still eligible, and I am 
thinking of one veteran who didn't recognize he was suffering from PTSD until 
20 years later, until he had a group, a mentoring group of other veterans, who 
were rendezvousing, had been going through the same feelings and he was not 
alone, and then he sought help. But what happens to that veteran?
    Dr. Kussman. Well, we don't just -- I mean with the enrollment management 
change that took place in the 1990s, 1996 I believe, we changed it to you 
don't have to have a service-connected illness to come to the VA.  Now having 
said that, there is one priority that we have, the decision was made if you 
are a Priority 8, and that is developed on an economic basis, but short of 
that you don't have to prove connection to be seen.
    What you might have to prove is connection to get comp and pen, but we 
still would take care of the person.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    The Chairman. Thank you.  Dr. Kussman, what DOD data would be most helpful 
to the VA as you attempt to assess future mental health workload?  What would 
be helpful to you?
    Dr. Kussman. Well, as I mentioned in my testimony, we are working very 
closely with DOD to get as much information as we can as early as we can, and 
the comment was made about the post-deployment screen, and I would leave that 
to Dr. Kilpatrick, but I believe that they are scanning those and trying to 
make them electronic and then forwarding them to us, and there has been a 
great deal of progress on that.  It's not perfect.
    Other piece of information that we would like to have, whether it is 
mental health or anything else, is that we have learned clearly with our 
outreach at Walter Reed and Bethesda with the individuals that have what we 
describe as polytrauma, that if we are going to be effective in our ability to 
make this as seamless as possible, and god knows we still have a way to go, 
but I believe in my heart that we are much better than we were two years ago 
in what we are doing.
    We would like to know who entered the disability process and when they 
entered it so we could then determine if they choose to use the VA -- and as 
you know, sir, if the individual gets medically separated or discharged, 
particularly medically discharged, they have different options.  They can 
continue to use the military system.  They can use TRICARE or they could come 
to the VA  But if they do want to come to the V.A, the sooner we can find out 
that information, get their comp and pen exam done, and get them appointments 
at the VA so when they leave they don't fall through the cracks and have to 
tumble along themselves.
    And as you know, sir, the V.B.A. has been reasonably good in the past 
about trying to make sure that at TAP and BDD there was education on 
non-health care benefits.  The VA in the past has not been as aggressive as 
we would like to be, and the servicemember had to show up and knock on the 
door.
    But we have changed that and we are actually partnering and being sure 
that not only do they get their comp and pen evaluation but, if appropriate, 
they get the appropriate appointments and get enrolled in the VA long before 
they actually get their DD-214.
    As you know also, we can't provide them anything or give comp and pen to 
anybody until they are a veteran.  They have got to get that DD-214, but the 
thrust is that everything is in place when they actually get the DD-214 and 
there isn't a long gap.
    The Chairman. Well, I accept your testimony about progress.  I remember 
Dr. Winkenwerder being over here two years ago talking about this, so please 
convey this to Dr. Winkenwerder.  He was invited to come here.  He came to the 
Armed Services Committee, and chose not to come here.  He sent you instead and 
I still haven't seen the progress, so you can tell him that for me, okay?
    Dr. Kussman. Yes, sir.
    The Chairman. I yield to counsel for the limited purpose of three 
questions.
    Ms. Bennett. Thank you, Chairman.  I am looking at VA's own data, in which 
they look at evaluation of programs. I believe that is your NEPEC Center, the 
Northeast Evaluation Program Center, that looks at the mental health service 
projections.
    They show that from the first half of '03, fiscal year '03 to now the 
first half of fiscal year '05 that the VA's seen at least a 10 percent 
increase in the number of veterans for just the very limited area of 
outpatient by the special PTSD clinical teams.
    Those veterans then have generated a 21 percent increase in the number of 
visits.
    VA has been working on a mental health model to do projections for 
capacity, to identify gaps in services.
    Did your model accurately project in just even that narrow area a 10 
percent increase?
    Dr. Shelhorse. PTSD symptoms, PTSD diagnoses are actually wrapped into a 
group within the model and they are combined with compensated work therapy and 
some other specialized programs.  In hindsight, it would have been 
advantageous for us to separate PTSD out as a separate entity from that group 
so we could begin to make the accurate comparisons that you are mentioning, 
and that will indeed be something we do in a future iteration.
    So as it stands right now, I cannot tell you that the model predicted "x" 
percentage of PTSD diagnoses versus what we actually experienced because it's 
actually blended with these other diagnostic entities within the group and in 
the model.
    Ms. Bennett. In VA's model that you created basically to identify these 
gaps, that  model does have implications for VA's budget.
    The first iteration of the model identified deficiencies in mental health 
service capacity that would require roughly at least $1.6 billion to address 
the chasm between the demand and the capacity for mental health services, 
including substance abuse, PTSD, depression, and a range of mental health care 
issues.
    The model was then revised and re-projected.  There was a significant drop 
in the gaps that were identified.
    In the revision of the model, it was estimated that roughly $700 million, 
or less than half of the original projection, would be needed to close the 
gaps by fiscal year 2007.
    Did the model include projections for OIF and OEF veterans that are 
coming, and does it -- are you now revising it to take into account Colonel 
Hoge's research and the outcoming research of increasing need for mental 
health services from returning soldiers?
    Dr. Kussman. Let me take a stab at the first part of your question.
    Yes, it's true that the original assessment was in the numbers that you 
have described.  However, when we looked at it critically and reviewed it -- 
and by the way, this wasn't done in a vacuum, it was done with our subject 
matter experts including people who work in the NEPC and our seriously mental 
ill and all the other groups found that there were serious flaws in the design 
to look at that that didn't take into account reliance, age cohorts, and 
things like that, because clearly mental health resources potentially we have 
seen from historically the Vietnam veteran needs more than the World War Two 
veteran, so that got revised on the $700 million.
    It was agreed upon and appreciated by all the people inclined, and as you 
know, our mental health providers and advocates are not shy and they certainly 
would have held us to a much level if they didn't agree with that number that 
was projected.
    I'll ask Mark about the second part of the question.
    Dr. Shelhorse. The model is essentially run off of data that is three 
years old, so '05 would be run off '02 actuals;  '06 would be run off '03 
actuals, so by '02 and '03 we would have seen very little of the influx of 
patients that we might be seeing at present from OIF, OEF.  The next year's 
run will take into account '04 data, and so it probably will be a better 
approximation of the information that you are asking for about what the impact 
of OIF and OEF will be.
    Mr. Barilich. And if I could also add, in addition each year the model is 
revised and refined.  Speaking with Barbara Manning this morning, who is one 
of the people who works on this, these type of things come up and need to be 
projected into the future obviously that weren't known at the time of the 
baseline year.
    Also along with that, I think it is important to note, too, that one of 
the other things that is included in that model is what is referred to as "vet 
pop" and what that is is the list of discharges from service of our potential 
veteran population, so that information is also blended into these models.
    Ms. Bennett. Just to follow up, have you yet revised your '07 projections, 
because that was a $700 million number that did not take into account OEF, 
OIF, or the intensity of their usage of mental health services from VA
    Are you revising it for your '07 budget?
    Dr. Kussman. Let me try to answer that by saying that we believe that that 
$700 million was an iterative thing over the course of our efforts to -- of 
the strategic plan, and as you know, the underSecretary to kick-start that put 
$100 million toward that goal in '05 and it will be continued in '06.  We are 
developing the '07 budget right now.
    The Chairman. There was a DOD collaborative effort to provide clinical 
practice guidelines to be useful tools. Are they being utilized?
    Dr. Kilpatrick. On the DOD side, the use is not what we would like to see. 
What we are seeing at this point is about one to three percent of people 
coming back coming in to primary care on answering, "Yes.  I am here today 
with a concern that may be related to a deployment."
    With the numbers of folks coming back, I would expect that that ought to 
be a lot higher and so we are taking a look at, with the services drilling 
down, to say how is this being used?
    Some places you swipe your ID card and you have to electronically answer, 
"Have you returned from a deployment? Is this a deployment related issue?"
    That data is very robust.  In some areas people are actually not asked 
that, so the policies there, the implementation, is not as robust as we would 
like.  But currently we are seeing about three percent of people coming in to 
primary care are indicating this is for a deployment-related issue.
    The Chairman. Dr. Kussman?
    Dr. Kussman. Sir, as I mentioned to you, when anybody comes to us and 
comes to enroll and needs an appointment, part of the protocol is to ask, "Are 
you OIF?" "Oh, yes."  Because we were giving and are giving them top priority 
to get in for access to whatever, to be sure that they get in within 30 days, 
obviously faster if it is urgent or emergent.
    Also I mentioned that in our electronic health record, if you come, even 
if you come for your back pain or headache or arm pain, the primary care 
provider who sees you, a drop down menu automatically forces the individual 
practitioner to ask questions related to potential deployment.
    We also have a very robust employee education system, as you know, that is 
geared toward educating not only patients and we also have a very robust 
employee education system, as you know, that is geared toward educating not 
only patients but our staff, both doctors, nurses, nurse clinicians, PAs on 
the best approaches to PTSD and mental health in general, because, quite 
frankly, nationally there aren't enough mental health providers to provide 
the full need that the country needs, and so you couldn't rely on the number 
of psychiatrists and psychologists in the job.  You have to rely on your 
primary care people to provide appropriate level of mental health care as part 
of their full service care to their patients.
    When I was a practicing internist, that was part of my job, to evaluate my 
patient for mental health, and if I didn't think or by the guidelines I was 
using if that was inappropriate for me to do it, they needed more advanced, 
then I would refer them on, but you can't treat the full patient without 
assessing the mental health as well, but again it is hard to get people to 
admit that they have got problems and we go back to the stigma.  The 
particular issue with mental health is that if the individual doesn't 
recognize that they have a problem, it's particularly challenging to treat 
them because if they keep denying the problem it is hard to force people to 
get help.
    The Chairman. Dr. Kussman, I think we are going to have to come back and 
maybe do it for another day, and that is I want you to, I am going to ask of 
you to become intimate with the IG report, because trying to separate out of 
all of this -- as soldiers and as we are matriculated into a system, a value 
system, an ethos -- we don't understand how some would then try to seek to use 
the system and do fraudulent claims and we don't like to talk about that.
    It's sort of like the big elephant in the room that everyone wants to 
ignore that there would actually be someone who would deface that value and 
then try to file fraudulent claims, and the IG has identified a practice going 
on out there and websites, and here is how you file your claims and if you 
get denied in this particular region, then start forum shopping.
    And we have this huge mushroom, an explosion now, of claimants, and what 
we want to do is make sure that we take care of people who particularly need 
it, right?  There is a challenge that we are confronting here, are we not?
    Dr. Kussman. If I could comment -- 
    The Chairman. Yes.
    Dr. Kussman. -- because you asked for that in your opening remarks.  
Obviously, as you quoted, it is a delicate issue and we are truly sensitive 
and aware of that problem. It is a combined VA/VBA/VHA issue of benefits as 
well as making the diagnosis.
    As you know, the Secretary is acutely aware of this, but we are not 
unique, by the way, in our interaction with our fellow countries that 
practice medicine and provide benefits like we do.  The Brits, the Canadians, 
the Aussies and the New Zealanders are actually seeing the same type of 
problem exploding with a lot of benefits, particularly mental health benefits, 
and they are struggling the same way that we are.
    The Secretary has charged us to look at that critically and make some 
recommendations to him and that is what we are starting to do, sir.
    The Chairman. When someone receives a 100 percent disability rating for 
PTSD, can't they continue to receive treatment and get better, so the 
disability rating could actually go down?
    Dr. Kussman. Yes, sir.
    The Chairman. The system doesn't prevent -- 
    Dr. Kussman. Oh, no, sir, it doesn't prevent them from doing it.  We 
encourage them.  I mean obviously if somebody has a 100 percent disability for 
any kind of mental health thing, we would presume that ongoing therapy would 
be a good thing and that they drop out of service.  Obviously we can't admit 
-- I mean impact on the course of their events.
    The Chairman. Once they get their check, and they get their 100 percent 
disability rating, and now they drop out of treatment, they have achieved a 
particular goal.
    Dr. Kussman. You could, sir, suggest that there are perverse incentives 
here.
    The Chairman. Well, that is what the IG report is indicating with this 
explosion.  It is something we need to look at.
    Dr. Kussman. Yes, sir, we are.
    The Chairman. Let me ask this one to professionals, and I'm sure that is 
the other panel.
    Is there a reluctance among the practice of psychiatry to really give that 
second opinion about someone else's diagnosis or not?  Is it pretty free-
flowing?
    Dr. Kussman. I don't think so, but I will turn to my psychiatrist here.
    The Chairman. I am just curious.
    Dr. Shelhorse. Not to my knowledge.  I, in fact, did these exams for many, 
many years and we had many remands where we had second opinions or even third 
opinions.  A panel would be required.  They were quite common.  No reluctance, 
no hesitation to give a second opinion even if it was a different opinion than 
the original examiner.
    The Chairman. Okay.  Well, that's good.
    Well, please convey my earlier remarks to Dr. Winkenwerder.  I mean the 
reason I came up with pre- and post- deployments was from the lessons learned 
coming out of the Gulf War and the synergies of my service on the Armed 
Services Committee and here, and so we put a lot of people through these, and 
then if that data is not being referred on to the VA, then we've got problems, 
so I just want you to know that it is very bothersome to me that this is 
continuing to occur.
    I want to thank you for your work that you are doing out there and 
continue to remain vigilant.  And this hearing is now concluded.  Thank you.

    [Whereupon, at 1:57 p.m., the Committee adjourned.]

</pre></body></html>
